<html>
<title> - ASYLUM FRAUD: ABUSING AMERICA'S COMPASSION?</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]







                             ASYLUM FRAUD: 
                     ABUSING AMERICA'S COMPASSION?

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    IMMIGRATION AND BORDER SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 11, 2014

                               __________

                           Serial No. 113-66

                               __________

         Printed for the use of the Committee on the Judiciary





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



      Available via the World Wide Web: http://judiciary.house.gov

                                  _______

                   U.S. GOVERNMENT PRINTING OFFICE

86-648 PDF                WASHINGTON : 2014
______________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001













                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
HOWARD COBLE, North Carolina         ROBERT C. ``BOBBY'' SCOTT, 
LAMAR SMITH, Texas                       Virginia
STEVE CHABOT, Ohio                   ZOE LOFGREN, California
SPENCER BACHUS, Alabama              SHEILA JACKSON LEE, Texas
DARRELL E. ISSA, California          STEVE COHEN, Tennessee
J. RANDY FORBES, Virginia            HENRY C. ``HANK'' JOHNSON, Jr.,
STEVE KING, Iowa                       Georgia
TRENT FRANKS, Arizona                PEDRO R. PIERLUISI, Puerto Rico
LOUIE GOHMERT, Texas                 JUDY CHU, California
JIM JORDAN, Ohio                     TED DEUTCH, Florida
TED POE, Texas                       LUIS V. GUTIERREZ, Illinois
JASON CHAFFETZ, Utah                 KAREN BASS, California
TOM MARINO, Pennsylvania             CEDRIC RICHMOND, Louisiana
TREY GOWDY, South Carolina           SUZAN DelBENE, Washington
RAUL LABRADOR, Idaho                 JOE GARCIA, Florida
BLAKE FARENTHOLD, Texas              HAKEEM JEFFRIES, New York
GEORGE HOLDING, North Carolina       DAVID N. CICILLINE, Rhode Island
DOUG COLLINS, Georgia
RON DeSANTIS, Florida
JASON T. SMITH, Missouri
[Vacant]

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel
                                 ------                                

            Subcommittee on Immigration and Border Security

                  TREY GOWDY, South Carolina, Chairman

                     TED POE, Texas, Vice-Chairman

LAMAR SMITH, Texas                   ZOE LOFGREN, California
STEVE KING, Iowa                     SHEILA JACKSON LEE, Texas
JIM JORDAN, Ohio                     LUIS V. GUTIERREZ, Illinois
RAUL LABRADOR, Idaho                 JOE GARCIA, Florida
GEORGE HOLDING, North Carolina       PEDRO R. PIERLUISI, Puerto Rico
[Vacant]

                     George Fishman, Chief Counsel

                   David Shahoulian, Minority Counsel





















                            C O N T E N T S

                              ----------                              

                           FEBRUARY 11, 2014

                                                                   Page

                           OPENING STATEMENTS

The Honorable Trey Gowdy, a Representative in Congress from the 
  State of South Carolina, and Chairman, Subcommittee on 
  Immigration and Border Security................................     1
The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Ranking Member, Subcommittee on 
  Immigration and Border Security................................     3
The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Chairman, Committee on the Judiciary     4
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................     6

                               WITNESSES

Louis D. Crocetti, Jr., Principal, Immigration Integrity Group, 
  LLC
  Oral Testimony.................................................     9
  Prepared Statement.............................................    12
Jan C. Ting, Professor of Law, Temple University Beasley School 
  of Law
  Oral Testimony.................................................    20
  Prepared Statement.............................................    21
Hipolito M. Acosta, former District Director, U.S. Citizenship & 
  Immigration Services (Houston) and U.S. Immigration & 
  Naturalization Service (Mexico City)
  Oral Testimony.................................................    24
  Prepared Statement.............................................    27
Eleanor Acer, Director, Refugee Protection Program, Human Rights 
  First
  Oral Testimony.................................................    31
  Prepared Statement.............................................    34

                                APPENDIX
               Material Submitted for the Hearing Record

Material submitted by the Honorable Trey Gowdy, a Representative 
  in Congress from the State of South Carolina, and Chairman, 
  Subcommittee on Immigration and Border Security................    80
Material submitted by the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Ranking Member, 
  Subcommittee on Immigration and Border Security................   141
Material submitted by the Honorable Trey Gowdy, a Representative 
  in Congress from the State of South Carolina, and Chairman, 
  Subcommittee on Immigration and Border Security................   215
Material submitted by the Honorable Steve King, a Representative 
  in Congress from the State of Iowa, and Member, Subcommittee on 
  Immigration and Border Security................................   221
Material submitted by the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Ranking Member, 
  Subcommittee on Immigration and Border Security................   237
Prepared Statement of Michael Comfort, President, Comfort Western 
  Enterprises LLC................................................   240

 
                             ASYLUM FRAUD: 
                     ABUSING AMERICA'S COMPASSION?

                              ----------                              


                       TUESDAY, FEBRUARY 11, 2014

                        House of Representatives

            Subcommittee on Immigration and Border Security

                       Committee on the Judiciary

                            Washington, DC.

    The Subcommittee met, pursuant to call, at 10:08 a.m., in 
room 2141, Rayburn House Office Building, the Honorable Trey 
Gowdy (Chairman of the Subcommittee) presiding.
    Present: Representatives Gowdy, Goodlatte, Poe, Smith of 
Texas, King, Jordan, Labrador, Holding, Lofgren, Conyers, 
Jackson Lee, and Garcia.
    Also present: Representative Chaffetz.
    Staff present: (Majority) George Fishman, Chief Counsel; 
Dimple Shah, Counsel; Andrea Loving, Counsel; Graham Owens, 
Clerk; and (Minority) David Shahoulian, Minority Counsel
    Mr. Gowdy. Welcome. This is a hearing on asylum fraud. The 
Subcommittee on Immigration and Border Security will come to 
order.
    [Disturbance in hearing room.]
    Mr. Gowdy. Will the Capitol Police please remove the 
protestors?
    The Subcommittee on Immigration and Border Security will 
come to order.
    Without objection, the Chair is authorized to declare 
recesses of the Committee at any time.
    We welcome our witnesses today.
    Perhaps I am a little late in saying this, but I will say 
it nonetheless. We are delighted to have everyone here. If you 
disrupt the hearing, you will be removed. This is your one and 
only warning. Other Committee Chairmen may give you more than 
one warning. This is the one that I am going to give you. So if 
you want to participate, we are delighted to have you. If you 
want to protest, you can leave now or the police will escort 
you.
    With that, I welcome all of our witnesses.
    And I will recognize myself now for an opening statement 
and then the Ranking Member and then the Committee Chairman.
    If you want an American version of running of the bulls, 
stand at the bottom of the steps after votes on a fly-out day. 
We are all in a hurry to get home, and I am probably the worst 
culprit of all. A few weeks ago, a young boy and his sister 
were at the bottom of the steps waiting on me. Mr. Gowdy, Mr. 
Gowdy, do you have a minute? The young boy was 10 and his 
precious little sister was either 3 or 4. The first time I 
asked her, she held up three fingers and then she held up four. 
So we kind of agreed on 3 and a half.
    I picked the little girl up and asked her brother what I 
could do to help him. I did not know if he wanted to talk about 
education. I did not know if he wanted to talk about medical 
research or immigration. What he said was he wanted was to pray 
for me and that was all he wanted. He wanted to say a prayer. 
So I held his sister and he said the most beautiful prayer at 
the foot of our Capitol.
    I think about that little boy and his sister from time to 
time, and I thought about them specifically over the weekend 
when my friend, the Ranking Member, sent me an article on 
people who were being persecuted in one country. And then a few 
hours later, I saw another article on a man in Central Africa 
whose throat was cut simply because he was a Christian.
    So we have the contrast between the greatness of this 
country where even a young boy and his sister can petition 
their Government at the foot of the Capitol, literally waiting 
on their Representative to practice the freedom of expression, 
the freedom of assembly, and the freedom of religious 
expression by openly praying in the shadow of the Capitol. And 
you contrast that with the reality that in other countries, you 
face persecution for your beliefs. You may be put to death for 
the possession of a book that we swear all of our witnesses in 
on in court. You may be denied access to education because of 
gender. You may be persecuted or killed if your religious 
beliefs do not match the religious beliefs of the majority. You 
will be victimized and the criminal justice system will be 
closed to you because you do not believe the right things or 
look the right way.
    Our fellow citizens recognize the gift we were given by 
being born in a land that values and practices religious 
freedom, and because we realize how fortunate we are, compared 
to the plights of others, there is a tremendous generosity of 
spirit we feel toward those who were born into, or live in 
oppression, discrimination, persecution, and retaliation.
    Americans are generous in spirit and that generosity is 
evidenced by our willingness to help, but Americans expect that 
generosity will be respected and not abused. We expect those 
that seek to come here are honest and fair in their petitions. 
We know that there are survivors of inconceivable and heinous 
atrocities. We are outraged. We are sympathetic. And more than 
just sympathy, we are willing to open our country to provide 
those in need with a refuge, with a sanctuary with safety and 
dignity. And about all we ask in return is that the system not 
be abused and that that generosity of spirit not be taken 
advantage of.
    So today we will examine how we can protect the integrity 
of our asylum program while ensuring we will not extend this 
special benefit to those who seek to take advantage or, worse 
yet, exploit American generosity to do us harm.
    With that, I would recognize the gentlelady from 
California, the Ranking Member.
    Ms. Lofgren. Thank you, Mr. Chairman. And I appreciate your 
comments recognizing the importance of the asylum system.
    America really stands as a beacon of hope and freedom 
around the world, and part of being that beacon of hope and 
freedom is our refugee program and our asylum program. Really, 
if you think back to the origins of the current asylum program, 
it was really put into shape after World War II when, much to 
our continuing shame, the United States turned away Jewish 
refugees who were fleeing Hitler who were then returned to 
Germany and who died in concentration camps. That was a wake-up 
call to the world and to the United States, and we put in place 
our asylum system.
    Recently there has been discussion of broad immigration 
reform, and I was encouraged that there might be some 
opportunity to move forward on a bipartisan basis. I still have 
that hope. But there has been concern expressed not only about 
immigration reform and the President, which I think is quite 
misplaced since the President has removed 2 million people in 
his first 5 years in office, more than President Bush removed 
in his 8 years in office, and there is vigorous enforcement of 
the immigration laws.
    But I also think that there is concern--and I have 
discussed this with the Chairman and I think I understand the 
origin--with the title of this hearing and the allegations not 
by the Chairman but by some that this is a system racked with 
fraud.
    Recently The Washington Times did a report citing an 
internal assessment of the asylum system, prepared by USCIS, 
but the report was from 2009. And they said that the audit 
finds the asylum system ripe with fraud. That is actually a 
gross mischaracterization of the USCIS assessment. And the odd 
thing is that the 2009 report was actually an assessment of 
what was going on in the year 2005, a number of years before 
President Obama actually was elected President. So I think it 
is important that we deal with the facts.
    And certainly the asylum system is not perfect. No system 
that we as people can design--we always want to improve our 
situation, but we need to recognize also that the system in 
place in 2005 is not the same as today. We need to get the 
facts out and recognize that the has done a great deal since 
2005 to combat fraud, including placing fraud detection 
officers at all asylum offices, placing fraud detection 
officers overseas to aid in overseas document verification, 
hiring document examiners and increasing the capacity to do 
forensic testing of documents, providing its officers access to 
numerous additional databases to assist in fraud detection, and 
entering into additional information sharing agreements with 
foreign governments to combat fraud.
    I am happy to support smart changes that further assist 
USCIS to eliminate fraud and advance its mission to assess 
asylum claims in a fair and timely manner. These changes, I 
think, could include hiring additional asylum and fraud 
detection officers to reduce backlogs, balance workloads, and 
expand the infrastructure for investigating potential fraud in 
asylum applications; dedicating additional personnel and 
resources to overseas document verification so that all 
investigative requests are completed in a timely manner; taking 
steps to ensure that ICE actually investigates referrals from 
USCIS fraud detection officers concerning asylum fraud; 
ensuring that ICE and DOJ dedicate appropriate resources to 
fully prosecute persons and groups that defraud the immigration 
system; and finally, assisting USCIS to expand training with 
respect to detecting and investigating fraud in asylum and 
other immigration applications.
    But we should make these changes not with our hair on fire 
because, as we address abuse, we must also address the many 
ways that the current system fails to protect legitimate and 
vulnerable refugees. We must ensure, for example, that our 
immigration courts are properly staffed and resourced. As 
funding for enforcement skyrocketed in recent years, funding 
for the courts lagged behind, leading to massive backlogs. 
These delays both increased the potential for fraud and prevent 
timely protection for legitimate refugees. Adequate resources 
are essential for maintaining the integrity and effectiveness 
of the system.
    I also think we should reconsider the 1-year filing 
deadline which is barring bona fide refugees from receiving 
asylum while undermining the efficiency of the asylum system. 
The deadline does not bar cases because they are fraudulent, it 
bars them based on the date they are filed, regardless of the 
applicant's claim. And we certainly know of cases, a Christian 
woman who was tortured and abused whose valid claim was denied 
because of this arbitrary standard. We need to take a look at 
that.
    Our country can strengthen the integrity of the immigration 
system and also provide asylum to refugees in a timely, fair, 
and efficient manner. This fair and balanced approach is 
consistent with the country's values and commitments, and I 
believe it is something that all of us on this Committee can 
embrace. Certainly none of us want to have a fraudulent 
situation, but we do want to maintain our Nation's status as a 
beacon of light and freedom in the world.
    And with that, Mr. Chairman, I yield back.
    Mr. Gowdy. I thank the gentlelady.
    The Chair will now recognize the Chairman of the full 
Committee, the gentleman from Virginia, Mr. Goodlatte.
    Mr. Goodlatte. Thank you, Mr. Chairman. Thank you for 
holding this hearing. Thank you for the prompt action to get 
the assistance of the Capitol Police to remove the protestors. 
That was an unfortunate, but very necessary step to take.
    And you know, when you see the passion of people like that 
about this issue, one would only hope that they would actually 
come to a hearing like this and stay and listen to the array of 
different points of view that they will hear from our panelists 
and from the Members of the Committee and the questions from 
the Members of the Committee that reflect upon the seriousness 
and complexity of these issues that need to be addressed. I 
know that every hearing that I attend I learn more about how to 
solve the problems that we have with our American immigration 
policy.
    So thank you for allowing us to proceed in this manner.
    The United States of America is extremely hospitable to 
immigrants, asylees, refugees, and those needing temporary 
protected status. Our Nation's record of generosity and 
compassion to people in need of protection from war, anarchy, 
natural disaster, and persecution is exemplary and easily the 
best in the world.
    We have maintained a robust refugee resettlement system, 
taking in more United Nations designated refugees than all 
other countries in the world combined. We grant asylum to tens 
of thousands of asylum seekers each year. We expect to continue 
this track record in protecting those who arrive here in order 
to escape persecution.
    Unfortunately, however, because of our well justified 
reputation for compassion, many people are attempting to file 
fraudulent claims just so they can get a free pass into the 
United States.
    The system becomes subject to abuse and fraud when the 
generous policies we have established are used for ideological 
goals by the Administration. It also becomes subject to abuse 
when people seek to take advantage of our generosity and game 
the system by identifying and exploiting loopholes.
    The House Judiciary Committee recently obtained an internal 
document demonstrating that U.S. Citizenship and Immigration 
Services' National Security and Records Verification 
Directorate's Fraud Detection and National Security Division 
completed a report in 2009 on asylum fraud in cases considered 
by asylum officers. They studied a sample of asylum 
applications that were affirmatively filed between May and 
October 2005. Pursuant to the report, a case was classified as 
fraudulent if reliable evidence pertaining to the applicant's 
asylum eligibility proved a material misrepresentation and the 
evidence was more than just contradictory testimony given by 
the applicant. If the indicators of fraud existed and pertained 
to the applicant's asylum eligibility, but fraud could not be 
confirmed by evidence external to the applicant's testimony, 
the case was classified as exhibiting ``indicators of possible 
fraud.'' A total of 12 percent of cases, 29 out of 239, were 
found to have proven fraud and an additional 58 percent, 138 
cases, had indicators of possible fraud, for a total 70 percent 
rate of proven or possible fraud.
    The Obama administration refused to make these findings 
public and has, to my knowledge, done nothing to address the 
concerns raised by the report. Instead, they felt their time 
was better spent contesting the report's methodology and hiring 
private contractors to rebut the findings of fraud. We have 
asked USCIS for any reports ever generated by the private 
contractors, but no such report has been provided to date.
    The only check suggested in the 2009 FDNS report that is 
mandatory, and has been since 2006, is the US-VISIT check. All 
other checks in the report are currently discretionary. The 
report also states: ``As a result of information gleaned from 
this study, FDNS plans to issue internal agency recommendations 
to improve USCIS processes and fraud detection.'' According to 
DHS, recommendations were made since 2009 but as of yesterday 
they have not told us either what those recommendations were or 
whether they had ever been implemented. Finally, USCIS made 
clear that under this Administration, no other fraud reporting 
analysis has been generated.
    To make matters worse, under Obama's tenure, approval rates 
by asylum officers have increased from 28 percent in 2007 to 46 
percent in 2013. If an asylum officer does not approve the 
application, it is referred to an immigration judge. Approval 
rates by immigration judges of affirmative applications have 
increased from 51 percent in 2007 to 72 percent in 2012. 
Combining these two bites at the apple, the vast majority of 
aliens who affirmatively seek asylum are now successful in 
their claims. This does not even take into account the 
appellate process.
    Additionally, when DHS grants an asylum application, the 
alien becomes immediately eligible for major Federal benefits 
programs that are not even available to most legal permanent 
residents, or not available to them for years. These programs 
can provide many thousands of dollars a year in benefits to 
each eligible individual.
    In 2012, 29,484 aliens were granted asylum. I am sending a 
letter to the Government Accountability Office to determine 
what the cost of these benefits are to the American taxpayer. 
If 70 percent of these grants were made based on fraudulent 
applications, American taxpayers are being defrauded out of 
hundreds of millions, if not billions, of dollars each year.
    I am certainly not calling for reduced asylum protections. 
On the contrary, asylum should remain an important protection 
extended to aliens fleeing persecution. We merely seek to 
improve the integrity of the existing asylum program by 
reducing the opportunities for fraud and abuse while ensuring 
adherence to our Nation's immigration laws.
    An overwhelming amount of fraud exists in the process and 
little is done to address it. Individuals are showing up in 
droves at the border to make out asylum claims. Adjudicators 
have the general mindset that they must get to ``yes'' in order 
to have successful careers. It is apparent that the rule of law 
is being ignored and there is an endemic problem within the 
system that the Administration is ignoring. Failing to address 
these problems undermines the good will and trust necessary to 
develop a common sense, step-by-step approach to improving our 
immigration laws. I look forward to addressing this disturbing 
problem today.
    Thank you, Mr. Chairman.
    Mr. Gowdy. I thank the gentleman from Virginia.
    The Chair will now recognize the gentleman from Michigan, 
the Ranking Member of the full Committee, Mr. Conyers.
    Mr. Conyers. Thank you, Chairman Gowdy.
    Less than 2 weeks ago, I was optimistic that we had turned 
a corner in the immigration debate when the Republican 
leadership released its new set of immigration principles. And 
although the principles were vague and subject to a wide range 
of interpretations, they nevertheless signaled real promise. A 
promise that my colleagues finally recognized the damage that 
our broken immigration system causes every day to families and 
businesses throughout the country. And a promise that this 
House would finally move forward on reforming the system for 
the good of us all.
    But just 1 week later, all that promise is all but gone. 
Why the sudden turnaround? Apparently it is all President 
Obama's fault. Despite record deportations and the lowest level 
of border crossings in the last 40 years, my Republican 
colleagues say, in effect, they do not trust the President to 
enforce our immigration laws.
    Now, let me take this moment to assure them that the 
President is enforcing our immigration laws vigorously, a lot 
more than some of us would like. My district office, like many 
other district offices in the House, can attest to this. Our 
case workers spend days dealing with heart-wrenching 
deportations and family separation. Nevertheless, this record 
level of enforcement does not seem to be enough.
    And so this weekend, the Senator from New York, Mr. 
Schumer, offered a different approach. Pass immigration 
legislation now but have it take effect in 2017 when a new 
President is sitting in the Oval Office. Many Republicans 
rejected this proposal as soon as they heard it. Even though 
the offer would take Obama out of the equation, they did not 
like it. Why? Those who gave a reason said it was because they 
still do not trust Obama.
    Now, this blame game and disregard for the facts is now 
being reflected in today's hearing, unfortunately. Last week, 
The Washington Times published an article about fraud in the 
asylum system citing a 2009 report from the United States 
Citizenship and Immigration Services. That report concerned 
asylum claims from 2005, 3 years before President Obama took 
office. Nevertheless, our majority seems to be blaming Obama 
for that too, and they refuse to recognize that the system in 
place today, while not perfect, is a vastly improved one from 
the system in place in 2005. The 2009 fraud report itself 
details several ways in which the system has been improved 
since 2005. But I guess it is just easier to blame President 
Obama.
    The issue we will address today is important. We know the 
number of people seeking asylum at our borders and in the 
interior of our country has increased over the last 2 years, 
and in some places at the border, the increase has been quite 
dramatic. It is important that we figure out why this is 
happening because only after that, can we figure out how to 
deal with it in a responsible way. But that is not all we have 
to do. Fixing our broken immigration system still lies ahead 
for the Congress, and I stand ready to do the work that needs 
to be done.
    So let us begin the second session by bringing up the 
bipartisan immigration bill that has already passed the Senate. 
If not, let us instead consider some of the Republican bills 
that I understand may be in the works. Let us just do something 
because doing nothing is no more an option for us than it is 
for the families that are being torn apart each and every day.
    I thank the Chairman and yield back.
    Mr. Gowdy. I thank the gentleman from Michigan.
    Before we recognize our witnesses, I would ask unanimous 
consent to add to the record, number one, a report by USCIS 
entitled ``I-589 Asylum Benefit Fraud and Compliance Report,'' 
and number two, a DHS report entitled ``Detained Asylum Seekers 
Fiscal Year 2012 Report to Congress.''*
---------------------------------------------------------------------------
    *See Appendix for this submission.
---------------------------------------------------------------------------
    I will now recognize the gentlelady from California who I 
think also has----
    Ms. Lofgren. Thank you, Mr. Chairman. I would like to ask 
unanimous consent to place into the record statements from the 
Evangelical Coalition, (the National Association of 
Evangelicals, the Ethics and Religious Liberty Commission of 
the Southern Baptist Convention, the National Hispanic 
Christian Leadership Conference, Liberty Council, World 
Relief); the U.S. Conference of Catholic Bishops; the Lutheran 
Immigration and Refugee Service; Church World Service; Hebrew 
Immigrant Aid Society; the United Nations High Commissioner for 
Refugees; the Center for Victims of Torture; Torture Abolition 
and Survivors Support Coalition; the National Immigrant Justice 
Center; the National Immigration Forum; Immigration Equality; 
and the American Immigration Lawyers Association, in opposition 
to changes that would hinder protection of refugees and 
asylees.
    I would also ask unanimous consent to place into the record 
a report from the Congressional Research Service outlining 
trends in asylum claims, pointing out that we are actually much 
lower in terms of asylum than in past years; and a letter from 
the Honorable Carlos Gutierrez, Governor Tom Ridge, Senator Mel 
Martinez, Governor Sam Brownback, Governor Jeb Bush, Grover 
Norquist, and others in support of refugees; as well as a 
letter from a broad coalition, including the Jubilee Campaign, 
National Association of Evangelicals, Southern Baptists, and 
others in support of changes to assist in refugee/asylee 
adjudication.**
---------------------------------------------------------------------------
    **See Appendix for these submissions.
---------------------------------------------------------------------------
    Mr. Gowdy. Without objection.
    We are delighted to have our panel today. I will begin by 
asking you to please all rise so I can administer an oath to 
you.
    [Witnesses sworn.]
    Mr. Gowdy. May the record reflect all the witnesses 
answered in the affirmative.
    I am going to introduce you en banc, and then--you can sit 
down. I am going to introduce you en banc, and then I am going 
to recognize you individually for your opening statement. The 
lights in front of you mean what they traditionally mean in 
life: yellow means speed up and red means stop.
    So, first, Mr. Louis Crocetti. Recently retired, Mr. 
Crocetti served the public for 37 years, 36 of which were 
dedicated to administering and enforcing U.S. immigration law. 
Mr. Crocetti started his immigration career as an immigration 
officer and progressed through the ranks to hold career Senior 
Executive Service level positions in both the Department of 
Justice and Department of Homeland Security.
    Shortly after retirement, Mr. Crocetti established a small 
business consultancy to help agencies and companies improve 
their effectiveness, efficiency, and integrity of current 
immigration-based policies, processes, programs, and 
operations.
    Mr. Crocetti holds degrees in criminal justice and 
jurisprudence from the University of Baltimore.
    Mr. Jan Ting. If I mispronounce somebody's name--and I am 
sure I will--I apologize in advance. Mr. Ting currently serves 
as Professor of Law at the Temple University Beasley School of 
Law where he teaches immigration law, among other courses. In 
1990, he was appointed by President George H.W. Bush as 
Assistant Commissioner for the Immigration and Naturalization 
Service of the U.S. Department of Justice. He served in this 
capacity until 1993 when he returned to the faculty at Temple.
    He received an undergraduate degree from Oberlin College, 
an M.A. from the University of Hawaii, and a J.D. from Harvard 
School of Law.
    Mr. Hipolito Acosta served as the District Director of the 
U.S. Citizenship and Immigration Services in Houston under the 
Department of Homeland Security in January 2004. He also 
assumed the leadership of legacy INS Houston District in August 
2002 and served in that capacity until the creation of the 
Department of Homeland Security. Mr. Acosta began his career as 
an agent with the U.S. Border Patrol where he received the 
Newton-Azrak Award, the highest recognition given by the U.S. 
Border Patrol for courage and heroism displayed in the line of 
duty.
    Following his retirement, Mr. Acosta co-founded and is the 
managing partner of B&G Global Associates, an investigative 
training and security company.
    Mr. Acosta graduated from Chicago State University and Sul 
Ross State University.
    And finally, Ms. Eleanor Acer currently serves as Director 
of Human Rights First Refugee Protection Program where she 
oversees Human Rights First's pro bono representation program 
and advocacy on issues relating to refugee protection, asylum, 
and migrants rights. Under her leadership, Human Rights First 
partners with volunteer attorneys in the United States to 
obtain asylum for more than 90 percent of its refugee clients.
    Before working for Human Rights First, Ms. Acer was an 
associate handling Federal litigation at Kirkpatrick and 
Lockhart.
    She received her J.D. from Fordham University School of Law 
and her B.A. in history from Brown.
    With that, welcome to each of you. Mr. Crocetti, we will 
start with you and recognize you for your opening statement.

  TESTIMONY OF LOUIS D. CROCETTI, JR., PRINCIPAL, IMMIGRATION 
                      INTEGRITY GROUP, LLC

    Mr. Crocetti. Thank you, Chairman and Committee Members, 
and thank you for the invitation to offer my very first 
testimony as a private citizen. I think this will be much more 
enjoyable.
    Upon the abolishment of legacy INS and the creation of DHS, 
I was recruited by senior leaders in the new USCIS to determine 
the most effective way to detect and combat fraud in our new 
and extremely vulnerable post-9/11 world. In standing up FDNS, 
the Fraud Detection and National Security, we were in urgent 
need of data that could focus on the most vulnerable areas. At 
this point, both the GAO and the 9/11 Commission had issued 
reports concluding that our legal immigration system was being 
used to further criminal activities, the most significant of 
which is known terrorists who entered and embedded themselves 
in the United States between the 1990's and 2004.
    In the absence of data from legacy INS, we developed two 
tools or programs that would help us collect and analyze data 
so that we could determine the types and volumes and indicators 
of fraud that existed and focus our efforts accordingly, as 
well as develop the systems, analytics-based systems, to make 
an effort to identify the fraud indicators at the time filing 
on the front end, which would have been unprecedented.
    Today I will talk about the benefit fraud assessments 
because it relates directly to the benefit fraud assessment we 
are talking about. The other tool, however, I would like you to 
research is the Administrative Site Visit and Verification 
Program, which conducts post-approved compliance reviews to 
determine fraud rates and percentages, an essential tool that 
needs to continue to be done.
    Between 2005 and 2008, FDNS completed eight benefit fraud 
assessments, but due to internal differences of opinion about 
methodology and other issues, we were only able to finalize 
four. The asylum-based BFA is one of the reports that did not 
get finalized. In that the draft report does not contain one of 
the classification levels in Executive Order 13526, entitled 
``Classified National Security Information,'' i.e., top secret, 
secret, or confidential, I am willing to discuss it here in the 
interest of national security and enhancing the integrity of 
our legal immigration system.
    One thing that is important to understand is the 
evidentiary standard for asylum, a very low burden. The 
applicant is more likely than not to be persecuted. If what he 
or she is saying is true and there is no negative or derogatory 
information to challenge the claim, asylum is likely to be 
granted. There are no mandatory documentary requirements. The 
possession of fraudulent identity or other documents or certain 
misrepresentations such as those to get visas and travel 
documents do not automatically disqualify an applicant.
    The decision is discretionary and based almost entirely on 
credibility. An applicant must, however, establish eligibility 
and present a persuasive claim.
    The methodology and case review process that we engaged 
consisted of taking a random sampling of 8,555 cases between 
May 1 and October 31st, 2005. And, yes, Congresswoman, that is 
very old, old data, which is one of the things we must 
question. Why do we have to use old data? These cases were 
either approved or they are still pending as of January 1, 
2006.
    In the methodology review process, there were two stages, 
levels of review. The first stage was FDNS field officers in 
the field would pull the cases in their jurisdictions and 
undertake a review. The second stage involved forwarding their 
findings to headquarters for a senior review team to look at 
the--holistically as a team to look at the findings and see if 
there were any necessary changes.
    In the stage one process, individual FDNS officers reviewed 
all the available documents, files, and oftentimes more than 
one file and other records. They also conducted a battery of 
government and open-source systems checks. If no 
inconsistencies or negative/derogatory information existed, 
they classified the case as ``no fraud indicators'' and 
forwarded it on to headquarters for the second level review.
    If inconsistencies existed or derog or any negative 
information, they felt an overseas verification of facts or 
information would be helpful, they requested overseas 
investigation.
    If an overseas investigation was not likely to be of value 
to help in the verification of information or events, they 
categorized the case as containing ``indicators of possible 
fraud'' and then forwarded it to headquarters for second-level 
review.
    If evidence of proven fraud, they simply categorized the 
case as ``proven fraud'' and sent that into headquarters.
    The actual study population consisted of 239. And working 
with our Department of--DHS Office of Statistics using and the 
principles of accounting at a confidence level of 95 percent 
and a margin of error rate of plus or minus 5 percent. There 
was a finding of fraud in 29 of those cases, so that is 12 
percent.
    I think one of the most important, however, percentages to 
remember is the number of cases that did not contain fraud, 
only 72 of the 239 cases. Thirty percent of those cases all 
those FDNS officers and the senior review team categorized as 
``no fraud.''
    One hundred thirty-eight of the 239, or 58 percent, 
contained possible fraud indicators. When including 27 of the 
uncompleted overseas verification requests, that increased to 
69 percent of possible indicators of fraud.
    There were only 59 of the 239 cases to overseas for 
information verification. Twenty-six of those 59, or 44 
percent, were completed. We were unable to complete 17 of those 
cases because of competing priorities within the State 
Department and the unavailability of CIS in most of those 
locations.
    Initially all 59 overseas verification request cases were 
determined to contain no fraud indicators, but in the second-
level review, the headquarters team did recategorize six, which 
is a very insignificant number of recategorization, reflecting 
the FDNS officers did a very good job in their review.
    One hundred five of the 138 cases, 76 percent, were found 
to have indicators of fraud and were placed in removal 
proceedings. We do not have data on what happened to those 
cases, but that is another issue with regard to the breakdown 
of data collection and reports between DOJ and DHS, 
specifically EOIR and CIS.
    Thank you.
    [The prepared statement of Mr. Crocetti follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                               __________
    Mr. Gowdy. Thank you, Mr. Crocetti.
    Mr. Ting?

          TESTIMONY OF JAN C. TING, PROFESSOR OF LAW, 
            TEMPLE UNIVERSITY BEASLEY SCHOOL OF LAW

    Mr. Ting. Thank you, Mr. Chairman and Members of the 
Committee.
    In May 2011, the world's attention was focused on the story 
of Nafissatou Diallo, a hotel housekeeper in New York, who 
claimed she was raped by Dominique Strauss-Kahn, then the head 
of the International Monetary Fund and thought to be a likely 
future President of France.
    How did Ms. Diallo, who was born in west Africa, come to be 
working in New York? She subsequently admitted that while in 
the U.S. illegally, she concocted a totally false story about 
being raped in her home country of Guinea in order to obtain 
legal asylum status in the United States. That admission is why 
the prosecution of Mr. Strauss-Kahn could not proceed. Ms. 
Diallo's lawyer opposed dropping the prosecution, arguing that 
lying in order to get asylum was really not such a big deal, 
that it was commonly done, and it was the understanding of many 
people that that is how you get asylum in the United States.
    She was not the only successful asylum claimant whose lies 
are subsequently exposed. Back in 1999, another immigrant, 
coincidentally also named Diallo, died in New York City as a 
result of police gunfire and was discovered to have made 
numerous false claims to gain asylum in the United States. 
Amadou Diallo had claimed to be an orphan whose parents were 
murdered, though his parents showed up at his funeral. And he 
claimed to be from Mauritania although he was actually from 
Mali.
    While many are believed to obtain legal asylum status by 
lying, most go on eventually to become U.S. citizens and the 
lies they tell to get status are never uncovered.
    The August 1st, 2011 issue of The New Yorker contains an 
article beginning on page 32 called ``The Asylum Seeker'' by 
Suketu Mehta, which tells in detail how illegal immigrants 
educate themselves on how to construct stories which make them 
sound like victims of persecution. The article features an 
asylum claimant who was making a completely bogus claim of 
having been raped. To strengthen her case, she attends group 
therapy sessions for rape victims at a public hospital and 
receives taxpayer-funded medications for her supposed 
depression, which she throws away.
    Such exposures of asylum claims are difficult to uncover, 
and the difficulties are compounded when the number of asylum 
applications is increasing. The total number of affirmative 
asylum applications has more than doubled in the last 5 years, 
exceeding 80,000 in fiscal year 2013. Over the same 5 years, 
so-called credible fear asylum applications made at the border 
have increased sevenfold from less than 5,000 to more than 
36,000 in fiscal year 2013. I have seen statistics from USCIS 
showing an approval rate of 92 percent for credible fear claims 
in 2013.
    What should be done? I have four suggestions.
    First and most importantly, all proposed grants of asylum 
should be routed through the U.S. State Department for comment 
and an opportunity to object, as was done when I served at the 
Immigration and Naturalization Service. I believe many of the 
career civil servants now working at CIS would support this 
proposal. Get the State Department involved. I think we can 
only improve asylum adjudication by restoring a role for the 
diplomats we trust to represent us in foreign countries who 
have firsthand experience in those countries and who are 
required to study their languages and cultures. They can call 
upon specialized resources in every country to evaluate 
questionable asylum claims.
    Second, I think Congress may want to reconsider the role of 
``credible fear'' in the expedited removal provision of the 
immigration statute. The statute already provides that ``in the 
case of an alien who is an applicant for admission, if the 
examining officer determines that an alien seeking admission is 
not clearly and beyond a doubt entitled to be admitted, the 
alien shall be detained for a removal proceeding under section 
240.'' That is the standard that should be applied to all 
arriving aliens.
    Third, just as the credible fear standard may originally 
have had some utility but has lost value as alien smugglers 
game the system and spread the stories that work in 
demonstrating credible fear, so the asylum statute itself, 
section 208, while a useful addition to our immigration law 
when added in 1980, may have lost some value as the stories 
have been spread that work in convincing an adjudicator to 
grant asylum.
    I would like to see Congress consider enhancing section 
241(b)(3), withholding of removal, by adding to that some of 
the benefits of asylum like adjustment of status to a permanent 
resident, and following to join for spouses and minor children 
under certain conditions, with a goal of replacing the asylum 
statute with a single enhanced withholding of removal statute 
for the protection of refugees. That statute has and will have 
a higher burden of proof than the asylum statute and should 
therefore be less susceptible to fraud.
    Fourth and finally, one last suggestion. Affirmative 
applicants effectively get two bites at the apple on asylum. As 
has been explained, if they are denied by the asylum officer, 
they get a shot at the immigration judge. And I think there is 
no reason to allow those two bites of the apple. Congress 
should consider making the asylum officer rejection 
determinative before the immigration judge and let the 
immigration judge rule on other possibilities for relief, 
including withholding of removal.
    That concludes my testimony, and I again thank the 
Committee for the opportunity to testify.
    [The prepared statement of Mr. Ting follows:]
         Prepared Statement of Jan C. Ting, Professor of Law, 
                Temple University Beasley School of Law
    Thank you, Mr. Chairman and members of the committee, for the 
invitation to testify on the subject of asylum fraud as an abuse of 
U.S. immigration law.
    In May, 2011, the world's attention was focused on the story of 
Nafissatou Diallo, a hotel housekeeper in New York, who claimed she was 
raped by Dominique Strauss-Kahn, then the head of the International 
Monetary Fund and thought to be a likely future president of France. 
How did Ms. Diallo, who was born in West Africa, come to be working in 
New York? She admitted that while in the U.S. illegally, she concocted 
a totally false story about being raped in her home country of Guinea, 
in order to obtain legal asylum status in the U.S.\1\ Prosecutors 
concluded that prosecution of Mr. Strauss-Kahn could not proceed in 
light of that admission.
---------------------------------------------------------------------------
    \1\ http://www.dailymail.co.uk/news/article-2018772/Nafissatou-
Diallo-Dominique-Strauss-Kahn-lawyers-accuse-maid-using-media-
campaign.html
---------------------------------------------------------------------------
    While the U.S. has numerical limits on the numbers of legal 
immigrants it admits every year, it has no numerical limit on the 
number of refugees it accepts every year on the basis of their claim 
for asylum because they face persecution in their home country on 
account of race, religion, nationality, social group, or political 
opinion. Illegal immigrants, once they enter the U.S. either illegally 
or by overstaying a temporary visa, have a strong incentive to lie in 
making an asylum claim in order to obtain permanent legal status to 
work legally and qualify for becoming a U.S. citizen.
    Asylum claims are currently ruled upon either by officers of the 
Department of Homeland Security or by immigration judges of the 
Department of Justice in the course of deportation proceedings. If the 
story is found to be credible and convincing, and to meet the legal 
standard of a well-founded fear of persecution on account of race, 
religion, nationality, social group, or political opinion, and if the 
story-teller has not been convicted of a crime, the request for legal 
permanent residence in the U.S. on grounds of asylum is usually 
granted.
    Outside groups monitor the adjudicators to identify and apply 
political pressure on any whose asylum approval rate is lower than the 
average, or who approve some nationalities less than others, even 
though each case is supposed to be decided on its own set of facts.
    Ms. Diallo is not the only successful asylum claimant whose lies 
are subsequently exposed. Back in 1999 another immigrant, also named 
Diallo, died in New York City as the result of police gunfire, and was 
discovered to have made numerous false claims to gain asylum in the 
U.S. Amadou Diallo had claimed to be an orphan whose parents were 
murdered, though his parents showed up at his funeral, and he claimed 
to be Mauritanian, though he was actually from Mali.\2\
---------------------------------------------------------------------------
    \2\ http://www.nytimes.com/1999/03/17/nyregion/his-lawyer-says-
diallo-lied-on-request-for-political-asylum.html
---------------------------------------------------------------------------
    While many are believed to obtain legal asylum status by lying, 
most go on to eventually become U.S. citizens, and the lies they tell 
to get status are never uncovered.
    The August 1, 2011, issue of the New Yorker contains an article, 
beginning on page 32, called ``The Asylum Seeker'' by Suketu Mehta, 
which tells in detail how illegal immigrants educate themselves on how 
to construct stories which make them sound like victims of 
persecution.\3\ The article features an asylum claimant from Africa who 
is making a completely bogus claim of having been raped. To strengthen 
her case, she attends group therapy sessions for rape victims at a 
public hospital and receives taxpayer-funded medications for her 
supposed depression, which she throws away.
---------------------------------------------------------------------------
    \3\ http://www.newyorker.com/reporting/2011/08/01/
110801fa_fact_mehta
---------------------------------------------------------------------------
    Other stories of brazen lies told by illegal immigrants in pursuit 
of asylum include the case of Adelaide Abankwah, championed by feminist 
and human rights figures. The U.S. Court of Appeals for the Second 
Circuit granted asylum to Abankwah in 1999 over the objections of the 
Immigration and Naturalization Service, which later proved fraud in her 
application including a stolen name and false passport. She was tried 
and convicted of perjury and passport fraud.\4\
---------------------------------------------------------------------------
    \4\ Mary Beth Sheridan, ``Ghanian Woman Convicted of Fabricating 
Tale'', Washington Post, Jan. 17, 2003, page A1, http://
www.highbeam.com/doc/1P2-246521.html
---------------------------------------------------------------------------
    See also the case of the Nigerian imposter calling himself Edwin 
Mutaru Bulus whose bogus asylum claim was exposed only after a 
sympathetic story was published in the New York Times.\5\ Xian Hua 
Chen, an illegal immigrant from China was convicted of perjury on his 
asylum application.\6\
---------------------------------------------------------------------------
    \5\ http://www.nytimes.com/1997/05/24/nyregion/doubts-cast-on-
identity-of-nigerian-who-says-he-s-a-political-refugee.html
    \6\ U.S. v. Chen, 324 F.3d 1103 (9th C., 2003), http://
openjurist.org/324/f3d/1103/united-states-v-chen
---------------------------------------------------------------------------
    Such convictions and exposures of false asylum claims are difficult 
and expensive to attain. And the difficulties are compounded when the 
number of asylum applications is increasing.\7\ The total number of 
affirmative asylum applications has more than doubled in the last five 
years, exceeding 80,000 in FY2013. Over the same five years, so-called 
``credible fear'' asylum applications made at the border have increased 
sevenfold from less than 5,000 to more than 36,000 in FY2013.\8\ I have 
seen statistics from USCIS Asylum Division showing an approval rate of 
92% for credible fear claims in FY 2013.\9\
---------------------------------------------------------------------------
    \7\ For a recent story of how aliens are smuggled into the U.S. to 
make asylum claims, and the pressures on immigration judges who reject 
those claims, see Frances Robles, ``Tamils' Smuggling Journey to U.S. 
Leads to Longer Ordeal: 3 Years of Detention'', New York Times, Feb. 2, 
2014, http://www.nytimes.com/2014/02/03/us/tamils-smuggling-journey-to-
us-leads-to-longer-ordeal-3-years-of-detention.html
    \8\ Cindy Chang and Kate Linthicum, ``U.S. seeing a surge in 
Central American asylum seekers'', Los Angeles Times, Dec. 15, 2013, 
http://articles.latimes.com/2013/dec/15/local/la-me-ff-asylum-20131215
    \9\ Data Provided by U.S. Citizenship and Immigration Services 
(USCIS) to House Judiciary Committee on December 9, 2013
---------------------------------------------------------------------------
    The concept of ``credible fear'' was instituted by the former 
Immigration and Naturalization Service as an informal screening device 
for the large numbers of Haitian people interdicted via boats on the 
high seas headed for the United States after the Haitian coup of 1991. 
The idea was that people interdicted via boats who could not articulate 
a credible fear that could qualify them for asylum would be repatriated 
to Haiti without further deliberation.
    At that time it was unclear whether the U.S. had any legal 
obligation to boat people interdicted on the high seas under the 
Convention and Protocol Relating to the Status of Refugees or under 
U.S. law. It was hoped that the credible fear determination would 
satisfy any basic requirement for an individual hearing that might 
subsequently be required by U.S. courts.
    Overwhelmed by increasing numbers of interdicted boat people, 
President George H.W. Bush in 1992 issued an executive order 
authorizing the direct return to Haiti of its nationals interdicted on 
the high seas, without any screening at all.\10\
---------------------------------------------------------------------------
    \10\ Executive Order 12807, 57 Fed.Reg. 23133 (1992).
---------------------------------------------------------------------------
    That policy was harshly criticized by candidate Bill Clinton during 
the 1992 presidential campaign. Those of us who worked to implement 
President Bush's policies were gratified when the incoming Clinton 
administration announced on the eve of inauguration day, that despite 
earlier criticism, it would continue the Bush administration policy of 
repatriation to Haiti without any screening interview. The Clinton 
administration ended up defending that policy against its critics in 
federal court, and won a significant victory when the U.S. Supreme 
Court sustained the policy by an 8 to 1 vote and held that neither the 
Convention and Protocol on Refugees nor asylum and withholding 
provisions of U.S. immigration law apply to U.S. repatriations from the 
high seas.\11\
---------------------------------------------------------------------------
    \11\ Sale v. Haitian Centers Council, Inc., 509 U.S. 155 (1993).
---------------------------------------------------------------------------
    My point is that the credible fear test was developed on the fly as 
a temporary screening device to facilitate repatriations from the 
interdictions of large numbers of people on the high seas headed for 
the U.S. without authorization. It is at best an unintended consequence 
for the credible fear test to be used to facilitate the entry into the 
United States of undocumented immigrants who present themselves at the 
border without having to prove their eligibility for asylum.
    Two final points: The increasing numbers of asylum applicants is a 
not just a problem for the U.S. Anyone looking at recent developments 
in Western Europe, Australia, Canada, even Israel, can see that for 
many reasons including the worldwide recession, continuing turmoil and 
conflict, and rising expectations, the number of asylum seekers who 
need to be processed has risen and will continue to increase throughout 
the world. Policy planning should reflect this reality.
    And it bears repeating that the international and U.S. legal 
standard for who is a refugee and therefore eligible for asylum in the 
U.S., at the discretion of the U.S. government, is more restrictive 
than the broader, more colloquially used concept of refugee. Those 
fleeing poverty, joblessness, and economic stagnation in their home 
countries do not qualify under the legal standard for refugees. Those 
seeking better education, health care, and opportunities for their 
children do not qualify as refugees. Those fleeing high rates of crime 
and generalized violence in their home countries do not qualify as 
refugees. Those fleeing natural disasters, however acute, do not 
qualify as refugees.
What should be done?
    First, all proposed grants of asylum should be routed through the 
U.S. Department of State for comment and an opportunity to object.
    There's no simple solution to the false asylum claims, but I think 
the Department of State foreign service officers as a group are better 
able to determine actual conditions in various foreign countries, and 
therefore more likely to detect false stories and recognize the truth, 
than asylum officers or immigration judges based exclusively in the 
U.S.
    The role of the Department of State in the adjudication of asylum 
claims was reduced and then eliminated because during the Reagan 
administration, that department was thought to favor asylum claims from 
countries whose governments the administration opposed, like Nicaragua, 
and to reject asylum claims from countries whose governments the 
administration supported, like El Salvador and Guatemala.
    But the reality is there are always going to be some political 
pressures on these decisions, and there are strong political pressures 
today on the adjudicators at the Departments of Homeland Security and 
Justice. Political pressures on asylum adjudications can be mitigated 
by involvement of the State Department. Adjudicators with high 
rejection rates can defend themselves by presenting State Department 
comments.
    I think we can only improve asylum adjudication by restoring a role 
for the diplomats we trust to represent us in foreign countries, who 
have first-hand experience in those countries, and who are required to 
study their languages and cultures. They can call upon specialized 
resources in every country to evaluate questionable asylum claims.
    Second, Congress might want to reconsider the role of ``credible 
fear'' in the expedited removal provision of the immigration 
statute.\12\ The statute already provides that ``in the case of an 
alien who is an applicant for admission, if the examining officer 
determines that an alien seeking admission is not clearly and beyond a 
doubt entitled to be admitted, the alien shall be detained for a 
(removal) proceeding under section 240.'' \13\ That is the standard 
that should be applied to all arriving aliens.
---------------------------------------------------------------------------
    \12\ INA Section 235(b)(1), 8 U.S.C. Section 1225(b)(1).
    \13\ INA Section 235(b)(2)(A), 8 U.S.C. Section 1225(b)(2)(A).
---------------------------------------------------------------------------
    Finally, just as the credible fear standard may originally have had 
some utility, but has lost value as alien smugglers game the system and 
spread the stories that ``work'' in demonstrating credible fear, so the 
asylum statute itself, INA Section 208, while a useful addition to our 
immigration law when added in 1980, may have lost some value as the 
stories have been spread that ``work'' in convincing an adjudicator to 
grant asylum.
    How did the U.S. meet its obligations under the Convention and 
Protocol on the Status of Refugees before 1980? The answer is through 
withholding of deportation, now withholding of removal, Section 
241(b)(3) of the Immigration and Nationality Act, 8 U.S.C. Section 
1231(b)(3). That statute prevents the removal of an alien to any 
country if, ``the alien's life or freedom would be threatened in that 
country because of the alien's race, religion, nationality, membership 
in a particular social group, or political opinion.''
    I would like to see Congress consider enhancing Section 241(b)(3) 
by adding to it some of the benefits of asylum, like adjustment of 
status to legal permanent resident, and following to join of spouses 
and minor children, under certain specified conditions, with the goal 
of replacing the asylum statute with a single enhanced withholding of 
removal statute for the protection of refugees. That statute has and 
will have a higher burden of proof than the asylum statute \14\, and 
should therefore be less susceptible to fraud.
---------------------------------------------------------------------------
    \14\ See I.N.S. v. Cardoza-Fonseca, 480 U.S. 421 (1987).
---------------------------------------------------------------------------
    That concludes my testimony, and I again thank the committee for 
the opportunity to testify.
                               __________

    Mr. Gowdy. Thank you, Mr. Ting.
    Mr. Acosta?

TESTIMONY OF HIPOLITO M. ACOSTA, FORMER DISTRICT DIRECTOR, U.S. 
     CITIZENSHIP & IMMIGRATION SERVICES (HOUSTON) AND U.S. 
       IMMIGRATION & NATURALIZATION SERVICE (MEXICO CITY)

    Mr. Acosta. Thank you, Mr. Chairman and Members of the 
Committee, and thank you for allowing me to testify on the 
subject of asylum fraud before you today.
    Several months ago, I spoke to a national of a Central 
American country in his early 30's who had been deported 3 
years earlier after having resided in the United States for 
over 8 years. During the period he was here, he established a 
very successful business enterprise and immediately, upon 
arriving in his country, returned to the U.S. via Mexico using 
the services of a human smuggler to get back to his business.
    Sometime after his illegal reentry, he sought the services 
of an immigration attorney to explore avenues to legalize his 
status. For a substantial fee, one of the options presented and 
recommended to him by the attorney was to file a credible fear 
claim. This legal advice was given despite the fact that he was 
already ineligible to file but the legal representative 
intended to use our own deportation record to show that he had 
been outside the country and would falsify the date of return. 
Even more egregious was the recommendation that cigarette burn 
marks could be placed on his body as evidence of torture in his 
country when he had been forced to return.
    Fortunately, in this instance, the alien did not pursue the 
advice given. Instead, he sought other legal counsel and 
reported the incident to appropriate authorities.
    While it is unknown what the outcome of the fraudulent 
claim finally would have been, this alien had an incentive to 
submit a fraudulent asylum claim to obtain legal status in the 
United States, especially when encouraged by immigration 
services providers who they consider experts and rely upon 
their advice for legal representation.
    With USCIS statistics indicating that 92 percent of the 
credible fear claims were approved during fiscal year 2013, the 
odds were certainly in his favor of receiving a favorable 
ruling despite the fraud.
    Ports of entry and some Border Patrol offices have reported 
surges of individuals presenting credible fear claims, 
including large numbers of Mexican citizens fleeing violence or 
threats from vicious narcotics trafficking cartels operating 
throughout that country. The violence occurring in Mexico and 
in some Central American countries is indisputable. The 
violence associated with the criminal organizations is real but 
under our legal standards does not qualify individuals for 
asylum. Yet, we have seen a staggering more than 500 percent 
increase during the 5-year period of claims along our southern 
border.
    Our immigration history has shown that Mexican citizens and 
Central American aliens have long sought to enter our country 
in search of a better way of life and opportunities. This has 
included those who have entered our country illegally or 
individuals who overstayed their visas. With our enhanced 
border security and better technology, illegal entry along our 
southern border has become much more difficult, and the cost to 
pay smugglers has in some cases reached up to $5,000 to be 
smuggled to interior cities of the United States. Given the 
possibility of being released into our communities until our 
recent lenient detention policy, filing a claim has been a much 
more attractive option than entering the United States 
illegally.
    Recent trends in the filing of asylum applications to abuse 
immigration laws have occurred in the past, and I believe it 
useful to learn from the previous abuse and mistakes over the 
years. One of the largest surges along our southern border 
occurred in the late 1990's when a catch and release policy for 
Central Americans who claimed they were fleeing violence and 
persecution in their native countries was instituted. A 
memorandum detailing intelligence we had received indicating 
that smuggling organizations were planning to flood the border 
was not heeded. Within 2 weeks of my memorandum, hundreds of 
aliens were entering the border city of Brownsville, Texas, a 
large number of which would simply be guided across the river 
and turn themselves in at the U.S. Border Patrol office in that 
city. With an order to show cause and a hearing date not 
determined, they simply continued their journey to their final 
destination, in many cases to rejoin relatives already in the 
country. When hearings were finally scheduled, the notices were 
in many cases returned as undeliverable or, if received, they 
simply failed to show up.
    Ironically, 4 years after I retired and more than 21 years 
after this surge, I was asked to provide testimony in a 
deportation hearing of one of those individuals we had arrested 
and released in 1988.
    Smuggling organizations, whether from Latin American 
countries or elsewhere, are quick to adjust to perceive 
weaknesses in our enforcement actions. When I was serving as 
the District Director of our office at the U.S. embassy in 
Mexico City, a smuggling organization with ties in the United 
States established a pipeline using the airport in Mexico City 
as a transit point for Iraqi nationals destined for the United 
States. Successful in getting small numbers to the border city 
of Tijuana and ultimately into the U.S. where they were able to 
file for asylum, it was not long before the numbers swelled to 
over 200, all who claimed they were fleeing their country 
because of religious persecution.
    It is important to note that some of those in this group 
had already been residing in different European countries but 
desired to rejoin relatives already in the United States.
    Ultimately, all those that were smuggled through Mexico 
City were allowed to enter the United States. That I am aware, 
no follow-up was ever conducted to determine what measures were 
taken to identify all of those in that particular group.
    Working with our counterparts in Mexico City resulted in 
the arrest of one of the participants at the Mexico City 
airport, and to my knowledge, this activity ceased.
    How can we address this fraud? Through my long career, I 
can state that I personally participated in the processing and 
I can also attest to how serious and dedicated our adjudicating 
officers are in trying to protect the national security of our 
country and our communities. And at the same time, they must be 
fair in adjudicating an application for benefit, many times 
with very limited information. I applaud them for those efforts 
and strongly believe we should provide them with all the 
available tools necessary that have been identified through a 
system in this important function for our country.
    Thank you, Mr. Chairman, for allowing me this opportunity 
to before you today.
    [The prepared statement of Mr. Acosta follows:]
  Prepared Statement of Hipolito M. Acosta, former District Director, 
U.S. Citizenship & Immigration Services (Houston) and U.S. Immigration 
                 & Naturalization Service (Mexico City)
    Mr. Chairman and members of the Subcommittee, my name is Hipolito 
M. Acosta. In March 2005, I retired as the District Director of the 
U.S. Citizenship & Immigration Services (USCIS) Office in Houston, 
Texas after serving in various positions throughout the United States 
and two foreign countries during more than twenty-nine years of 
service. Prior to reporting to my last assignment, I served as the 
District Director of the U.S. Immigration & Naturalization Service 
office at the U.S. Embassy in Mexico City, a jurisdiction that covered 
Latin America and the Caribbean, including an INS office operating at 
the U.S. Interest Section in Havana, Cuba. Thank you for this 
opportunity to testify on our nation's asylum program.
    Our nation has been a generous one in receiving immigrants from 
throughout the world who have sought protection from well-founded fears 
of persecution because of race, religion, nationality, membership in a 
particular social group or political opinion. In my long career in this 
field, I had the privilege of working on refugee and asylum matters as 
a front line officer as well as senior manager under the U.S. 
Immigration and Naturalization Service (INS). I bring to this hearing 
the unique perspective of having processed and adjudicated applications 
filed by Cubans during the Mariel Boatlift in 1980; Vietnamese 
applicants in Vietnam and the Philippines; served as the INS Officer in 
Charge of our processing team on the U.S. Naval Ship Comfort during the 
Haitian exodus in 1994 and finally, processed applicants at the INS 
office in Havana, Cuba in 1995. I will add that in addition to 
personally conducting credible fear interviews, as a senior officer of 
the agency I was tasked with reviewing all denial recommendations of 
other processing officers and signing off on the denials, a 
responsibility I took seriously as I knew very well the consequences 
applicants might face if we denied claims in error. I share with you my 
experience in the asylum field for a number of reasons, the most 
important being that lessons learned throughout those years are still 
valuable today as we see yet another surge in asylum applications, 
especially along our Southwest border.
               challenges and fraud in asylum processing
    Adjudicating officers are tasked with an awesome responsibility 
that will have a lasting impact on the lives of those seeking asylum in 
our country. More importantly, they must take into account the security 
implications for our nation and communities when making those 
determinations. Oftentimes, those decisions are made with testimonial 
presentations and limited documentary evidence to assist them. Even 
when fraudulent documents are presented, that it itself is not 
sufficient to deny a credible fear claim.
    There are many pros and cons to consider and discuss when 
addressing our asylum process and with limited time, I believe it 
important to address an area that poses not only a challenge when 
making these determinations but more importantly a factor that has 
often led to abuse of our generous policy--a lenient detention policy. 
In sum, my experience in this field and our history will show that a 
policy that includes the possibility of being paroled upon making a 
credible fear claim at our ports of entry or being granted relief while 
already inside the country is a huge magnet for aliens who would 
normally not qualify for other immigration benefits. This also provides 
a golden opportunity for individuals or organizations who want to 
profit from this activity, whether human smuggling or in assisting 
applicants with false claims. Please allow me to share with you my 
personal experiences that I believe will substantiate that position. 
This is a recent example of one such case.
    A Honduran national was arrested and deported from the United 
States after residing in the country illegally for eight years. During 
that period, he established an extremely successful business enterprise 
and immediately upon arriving in his country, returned to the United 
States via Mexico using the services of a human smuggler to continue 
business operations. Two or three years after his illegal reentry, he 
sought the services of an immigration attorney to explore avenues 
available to legalize his status. For a huge fee and after having paid 
a large retainer, one of the options presented and recommended to him 
by the attorney was to file a credible fear claim. This despite the 
fact he had already been in country for more than one year. Since there 
was an actual deportation on file, the attorney offered that this 
record would be used to substantiate that he had departed the country 
and his illegal reentry date would be based on what period they wanted 
to submit. Even more egregious was the recommendation by the attorney 
that cigarette burn marks would be placed upon him to be used as 
evidence of torture when he had been returned to Honduras and would 
likely be subjected to more torture because of his social class. 
Fortunately and despite the hefty retainer paid, he decided he wanted 
no part of this scheme, sought legal counsel elsewhere and reported the 
incident to authorities. While this is not the typical fraudulent type 
of claim, there are undoubtedly many more that would try to game the 
system.
    Ports of entry along are Southern border and U.S. Border Patrol 
offices have reported large surges of individuals presenting credible 
fear claims, including large numbers by Mexican citizens fleeing 
violence or threats from vicious narcotics and criminal cartels 
operating throughout Mexico. It is undisputable that violence, 
extortion, kidnappings and other criminal activity has reached alarming 
levels in some Latin American countries but especially much more so in 
Mexico, where the great majority of organized criminal activity is 
controlled by the different Cartel groups. The criminal activity of the 
cartels is not limited to the aforementioned crimes, as smuggled aliens 
report that organizations involved in human smuggling are controlled by 
the cartels, oftentimes in collusion with law enforcement authorities.
    With our enhanced border security and the cartel choke holds, the 
possibility of being allowed into the United States by making a 
credible fear claim and subsequently being released is an attractive 
magnet for citizens of Mexico and other Central American countries who 
would normally not qualify for non-immigrant visas. Why take a chance 
with an illegal border crossing when this option is available? This is 
also an attractive option for cartel members who fall out of favor 
within their own ranks, lose ground in some of the turf battles or 
simply want to continue their illicit activities in the United States 
but don't want to take the risk of apprehension by the U.S. Border 
Patrol while attempting illegal entry. The fact that many might have 
never been in the U.S. and would therefore not show up on any database 
check presents a huge problem for our officers when trying to make a 
determination on their claims. Our country has already experienced what 
the outcome can be when a lax detention policy is in place. These are 
important and expensive lessons that must not be allowed to repeat. I 
can share this through my personal involvement in one such surge in 
1988.
                       south texas--late eighties
    Recent reports and statements have been made that aliens are 
arriving at ``rates never seen before'' claiming a ``credible fear'' of 
persecution while seeking to avoid being returned to their country of 
origin. These reports refer to the large surges of foreign nationals, 
largely from Central America and Mexico, claiming asylum at U.S. ports 
of entry and across our borders. These reports are not entirely correct 
as we have had larger numbers surge our borders using this same scheme 
as occurred in the later eighties. What's important here is not the 
numbers of then and now but the reason for these surges.
    The answer is rather simple--the ability to make a claim, whether 
genuine or not, that results in release and being able to continue 
travel into the United States to rejoin family members and in most 
cases, never report for any immigration hearings scheduled has been the 
magnet for those seeking entry into the United States.
    In late 1988, the Harlingen, Texas District Office, facing 
budgetary restraints and limited detention space, instituted a policy 
of releasing on recognizance aliens from Central America who claimed 
they were fleeing violence and persecution in their homeland. Served 
with an Order to Show Cause with a time and date of the hearing to be 
set at a future date, the apprehended aliens were allowed into the 
community with instructions that they could not leave the border area. 
Not only did they not remain in the South Texas areas, the great, great 
majority of those released continue their northward treks with the 
assistance of smuggling organizations operating on both sides of the 
border.
    As the Supervisory Special Agent in Charge of the U.S. Border 
Patrol Anti-Smuggling Unit in Brownsville, Texas I had received very 
reliable information through our contacts in Mexico and Central America 
that human smuggling organizations were recruiting heavily and planning 
to flood the border. Armed with this information, I immediately 
expressed my concerns through a memorandum I submitted through channels 
to our then Regional Commissioner, asking that the practice and policy 
be rescinded. My request was not heeded or addressed. As records will 
indicate, my concerns became a reality and South Texas was flooded with 
thousands of Central American aliens, many of whom would simply walk 
across the river and guided to the local U.S. Border Patrol office to 
turn themselves in for processing and release. On numerous occasions, 
this number was over one thousand aliens encountered per day. 
References have been made that South Texas was flooded as a result of 
the 1986 Immigration Reform and Control Act and the amnesty provisions 
but that is far from true. What attracted these large numbers was the 
ability to evade detention and slip into the shadows in interior cities 
of the United States with the documents provided by our immigration 
authorities. Then and now, criminal organizations availed of our policy 
to profit. Could criminals have been included in those surges and could 
that happen today? Our experiences have already shown that smugglers, 
criminals and those that would harm our country would gladly avail of 
whatever method or scheme they can use to enter the United States. The 
following is an example of how this opportunity was used during the 
surges of 1988 and 1989.
    Knowing they would not be detained, smuggling was brazenly and 
completely done in the open. On one occasion, agents under my 
supervision and I witnessed two busloads of Central American aliens 
being off-loaded on the Mexican side of the river while being escorted 
by law enforcement officials. Ultimately, we detained approximately 110 
aliens who had been transported through Mexico and directly to the 
river by human smugglers. We filed charges on 10 human smugglers, the 
owner of a local low-end hotel and seized a number of taxi-cabs being 
used by the smuggling operation.
    Aliens and human smugglers from Latin American countries are not 
the only ones attracted by our generous detention policies when 
pursuing credible fear claims. In mid-2000, a small number of Iraqi 
nationals made their way through Mexico to the border city of Tijuana 
using the services of a Detroit based smuggling organization. Corrupt 
Mexican immigration officials at the airport in Mexico City facilitated 
their entry into the country. Once on the border, the small number of 
arrivals commenced making credible fear claims and soon word spread. 
Within a short period of time, over two hundred had arrived in Mexico. 
When four smugglers in the group were arrested by Mexican authorities, 
extensive media attention was given to the plight of the Iraqi 
nationals who all claimed had fled their homeland seeking refuge from 
persecution because of their Christian religion. Some of those 
encountered had actually been out of Iraq for several years. Also not 
known to the public was the fact that Mexican immigration authorities 
had arrested a large number trying to transit the Mexico City airport 
and had arrested at least one of their own immigration officers with 
information we had provided them. Our agency made a determination that 
we would not oppose the Mexican government releasing the large number 
of Iraqis they had held in custody with the understanding that those 
released would have to depart Mexico within a ten day period. Those 
released did in fact leave Mexico City--proceeding directly to Tijuana 
where they ultimately would apply for admission based on their claims 
of a well-founded fear of persecution.
    Of particular note is the fact that many of these claimants had 
been in different countries prior to using Mexico as a jumping point. I 
would not dispute the fear of religious persecution by the Iraqi 
applicants but the risk to our country--this is pre-9/11--was that in 
some cases there was no way to verify the true identities or 
backgrounds of all those in this large group. Of equal importance is 
determining if any type of follow-up was ever done on those that were 
allowed into the country and granted status.
    Reaching our borders or getting inside the country has generally 
proven to enhance the possibility of being allowed to remain when 
claiming credible fear, regardless of whether the persecution exists or 
not. Not being able to reach our shores however, is a different story. 
An excellent example is that of the Haitian nationals and Cubans.
    Not unlike the Mexican situation of today, Haitians have long had 
issues with ensuring protection of its citizens. The random acts of 
violence are well known as are the disparity in social classes. In 
1994, I served as the Officer-in-Charge of the INS processing team 
onboard the U.S. Naval Ship Comfort. The vessel was used as a 
processing facility for thousands of who had fled Haiti but were 
interdicted at sea by the U.S. Coast Guard. The approval rate for those 
processed was in the low twenty percent, yet no one could dispute the 
hardship and violence prevalent in Haiti but our officers were required 
to adjudicate with the statue regulating well-founded fears of 
persecution. Had the number of Haitians interdicted reached out shores 
or borders, it is unlikely that we would have been able to process and 
return them to the country as efficiently as we did. This factor 
coupled with the high denial rate resulted in a complete slowdown of 
the mass exodus.
    detecting fraud or criminal backgrounds when documents are not 
                available cuban mariel boatlift program
    During the early part of 1980, close to 125,000 Cubans arrived on 
our shores in what became known as the Cuban Mariel Boatlift. When 
interviewed at the various processing sites established throughout the 
United States, all sought to establish they were fleeing their homeland 
because of persecution or a well-founded fear of persecution because of 
race, religion, nationality, membership in a particular social group, 
or political opinion.
    Assigned to our U.S. Immigration and Naturalization processing team 
in Ft. McCoy, Wisconsin, I had an opportunity to interview and process 
several hundred applicants and their families. I have no doubt that 
many did indeed suffer persecution as a result of their opposition to 
an oppressive regime or other factors that would qualify them as asylum 
applicants. It is also true however, that many simply wanted to join 
relatives already in the United States and in fact, the Cuban 
government used this opportunity to empty their prisons and place 
hardened criminals on the vessels departing Cuba. Smugglers in South 
Florida seized on the open invitation to enrich themselves by offering 
their services to relatives in the United Sates willing to pay to have 
their relatives smuggled.
    During interviews of applicants and their families, INS 
interviewing officers could easily determine the applicants had been 
coached prior to their interview. Their stories were consistently the 
same and in fact, we determined that when applicants were notified that 
they had been approved and sent to the waiting area, through sign 
language known to many of those who had been imprisoned in Cuba, would 
communicate what presentations or claims were being accepted to those 
still waiting to be interviewed. Through sources we developed inside 
the housing area, a second INS officer and I were able to learn the 
sign language used and would often surprise applicants with what story 
they were going to present as they commenced their credible fear claim 
interviews. Once confronted with this information, they readily 
admitted to the coaching.
    Of particular concern was the large number of applicants who had 
spent years in Cuban prisons but not for political activity or 
oppression as many claimed. They had been sent to prison for criminal 
activity that included theft, rape, robberies, murder, etc. These 
applicants too were coached on how to claim asylum. Fortunately, we 
developed sources who provided information on a great number of these 
criminals and through interviews, were able to establish that they were 
a danger to our communities were they to be released.
    Laureano Buffuartue was one of these asylum applicants. Detained in 
Cuba at the age of twelve for theft, he did not see freedom again until 
placed on one of the vessels destined for the United States. With 
information provided by confidential sources, I interviewed Mr. 
Buffuartue who readily admitted to killing three men during his prison 
time. Had this information not been developed, there is likelihood that 
through appropriate coaching, Mr. Buffuartue would have made a 
fraudulent claim and if approved, would have ended in one of our 
communities. Like Mr. Buffuartue, there were hundreds of other asylum 
seekers who were detained but many more that number who ultimately were 
released.
    The discovery of Mr. Buffuartue occurred in 1980 but I am sure this 
could happen today with the influx of asylum seekers at our Ports of 
Entry or those detained along our border who make a claim to credible 
fear. These could include criminals for which no background check, 
including FBI checks or those done through other data-bases would 
disclose their identity or true background. This type of information 
would only be revealed through the interview conducted by an officer 
with the skills, knowledge and time to pursue this matter or from 
information from foreign agencies.
    The persecution claims presented by the Cubans in Mt. McCoy, 
Wisconsin were not limited to asylum applicants already in the United 
States. In 1996, I conducted refugee interviews at the U.S. Interest 
Section in Havana, Cuba and found that many of the same stories were 
presented to adjudicating officers. When additional documents were 
requested, applicants had no problems in obtaining those documents 
through the Cuban authorities. It was also not uncommon to discover 
that the documents obtained in many cases contained fraudulent 
information that would benefit an applicant in pursuing his credible 
fear claim. During one interview with a family unit that consisted of 
sixteen family members, I informed the principal applicant that he had 
not met the criteria to establish a well-founded fear of persecution 
based on his testimony and documentation. He and his immediate family 
however, qualified for parole into the United States based on an 
immigrant visa petition filed by relatives in the country already. He 
and the family members refused the offer of parole and chose to stay in 
Cuba because they would not qualify for benefits granted to refugee 
entrants and would have to pay for their transportation. Had they 
really feared persecution, there is no doubt they would have fled at 
this opportunity.
                     conclusion and recommendations
    The examples of fraudulent claims in the asylum process I mention 
in my presentation are just a few of many that have occurred throughout 
the years. Studies conducted have shown the vulnerabilities in the 
process and what is necessary in combating this fraud. I urge that some 
of the measures I mention here are continued or expanded to assist 
USCIS in making the asylum determinations:
    The close and continued cooperation between USCIS, ICE and DOJ is 
crucial in pursuing prosecution of immigration service providers 
involved in massive fraud and misrepresentation such as in the example 
earlier in this document of an attorney suggesting that a client 
consider having burn marks placed on his body as evidence of torture. 
Prosecution is crucial not only of the immigration service providers 
but the applicants themselves who conspired and assisted with the 
Service providers in submitting their fraudulent claims to obtain 
benefits. Action against the applicants should include detention and 
deportation as a result of filing fraudulent applications.
    Extensive data-base checks must continue and as in previous case 
studies indicate, must be completed before a benefit is granted.
    Overseas verification of documents is crucial when fraud indicators 
are present and can best be addressed through a timely response from 
overseas offices. These requests must be given high priority by the 
receiving office and if a response is not received within a mandated 
time period, call-up measures must be implemented.
    Finally, extensive studies should be conducted on a yearly basis to 
analyze and identify fraud patterns and practices. This information is 
vital for adjudicators in making their determinations and in 
identifying vulnerabilities in the program.
                               __________

    Mr. Gowdy. Thank you, Mr. Acosta.
    Ms. Acer?

    TESTIMONY OF ELEANOR ACER, DIRECTOR, REFUGEE PROTECTION 
                  PROGRAM, HUMAN RIGHTS FIRST

    Ms. Acer. Thank you very much. Chairman Gowdy, Ranking 
Member Lofgren, and Members of the Subcommittee, it is an honor 
to be here today to offer our views about U.S. asylum policy.
    My name is Eleanor Acer and I direct the Refugee Protection 
Program at Human Rights First. Human Rights First is an 
independent advocacy organization that challenges America to 
live up to its ideals and assert its leadership on human 
rights. In our work, we develop partnerships with retired 
military leaders, former law enforcement officials, faith 
leaders, tech companies, and others to drive home the point 
that human rights are universal ideals and American values. 
With offices in New York, Washington, D.C., and soon in 
Houston, Texas, we oversee one of the largest pro bono refugee 
representation programs in the country, working in partnership 
with volunteer lawyers at some of the Nation's leading law 
firms.
    Providing refuge for the persecuted is a core American 
value reflecting this country's deep commitment to liberty and 
human dignity, as well as its pledge under the post-World War 
II Refugee Conventions Protocol.
    At Human Rights First, we see every day the ways in which 
people are protected through the U.S. asylum system. They are 
victims of religious persecution, women targeted for honor 
killings, trafficking, and horrific domestic violence, people 
targeted because of their ethnicity or sexual identity, and 
human rights advocates who stand up against oppression. You 
know these stories, Mr. Chairman, because as Americans we are 
defined by our global stance against injustice and a fair 
system for equal opportunity.
    A strong asylum and immigration system that adjudicates 
cases in a fair and timely manner and includes effective tools 
for fighting abuse is essential to the integrity of the U.S. 
asylum process and to protect those fleeing persecution. When 
individuals or groups defraud the system, it hurts everyone, 
and steps should be taken to counter those abuses and punish 
the perpetrators.
    U.S. authorities have a range of tools to address these 
abuses. Many of the existing tools are outlined in my written 
testimony, including multiple identity and background checks, 
personnel in multiple agencies charged with detecting and 
investigating fraud, and the ability to refer for prosecution 
those who perpetrate fraud. That is particularly important 
because it sends a message that fraud will not be tolerated.
    But you asked today if these safeguards are in place, what 
else can be done to strengthen the asylum system. And with the 
increase in credible fear claims on the border, are there 
additional steps that should be taken to safeguard the system? 
There are ways to handle these challenges that will reflect 
American values and strengthen the asylum system.
    First, as I mentioned, the immigration agencies should 
utilize and increase as necessary anti-fraud tools and 
prosecutions should be continued and stepped up.
    Another critical step also deserves attention. USCIS and 
EOIR should be properly staffed and resourced to adjudicate 
cases in a fair and timely manner and to eliminate backlogs 
that can be a magnet for abuse. Delays both increase the 
vulnerability of our immigration system to abuse and prevent 
refugees from having their cases adjudicated in a timely 
manner, often leaving refugee families stranded in difficult 
and dangerous situations abroad.
    Asylum office and immigration court staffing should be 
increased to ensure timely and personal credible fear 
interviews, timely referrals of affirmative asylum claims that 
are not granted in the immigration courts, and the elimination 
of prolonged delays and substantial backlogs in the immigration 
courts.
    As we seek to strengthen the system, we should also address 
the many ways in which refugees often find themselves lingering 
for months in jails and jail-like detention centers or denied 
or delayed in receiving protection. Unjust and unnecessary 
barriers that deny or delay protection to refugees, like the 
filing deadline bar to asylums, should be eliminated.
    In addition, the recommendations of the bipartisan U.S. 
Commission on International Religious Freedom relating to 
expedited removal and detention should be implemented, 
including its recommendations on parole for eligible asylum 
seekers and the expansion of legal orientation presentations.
    Congress should support the increased use of alternatives 
to detention as well, as detailed in my testimony.
    While steps can and should be taken to strengthen the 
asylum system, it is absolutely essential that any changes in 
the law be very thoroughly thought out so that they do not 
further risk returning refugees to persecution or further 
prolonging detention in cases where it is unnecessary.
    Thirty years ago, President Ronald Reagan signed into law 
the Refugee Act of 1980, which passed Congress with bipartisan 
support enshrining into domestic law America's historic 
commitment to protect the persecuted. Yesterday, as was noted 
earlier, 10 leading Republicans issued a statement in support 
of this country's commitment to protect the persecuted, stating 
that, quote, our policies toward refugees are at the heart of 
our American values. These individuals included former 
Secretary of Commerce Carlos Gutierrez, Governor Tom Ridge, 
Senator Mel Martinez, Dr. Paula Dobriansky, Governor Sam 
Brownback, Governor Jeb Bush, Grover Norquist, Jim Ziglar, 
Alberto Mora, and Suhail A. Khan. Mr. Chairman, we appreciate 
your entering that document into the record today.
    America should not abandoned its compassion but should 
stand firm as a beacon of hope that will not turn its back on 
those seeking protection from persecution.
    Thank you very much for the opportunity to share these 
views with you today.
    [The prepared statement of Ms. Acer follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                               __________
    Mr. Gowdy. Thank you, Ms. Acer.
    Before I recognize the Chairman, I would ask unanimous 
consent to add to the record the article referenced by Mr. Ting 
entitled The Asylum Seeker from The New Yorker. I hear no 
objection.***
---------------------------------------------------------------------------
    ***See Appendix for this submission.
---------------------------------------------------------------------------
    I would now recognize the gentleman from Virginia, the 
Chairman of the full Committee, Mr. Goodlatte.
    Mr. Goodlatte. Thank you, Mr. Chairman.
    Mr. Crocetti, in your testimony you mentioned that once the 
public became aware of these fraud reports, there was pressure 
to release them broadly, and thereafter, the contents of the 
reports became politicized. What did you mean by that? And 
explain how the content might have changed once there was 
pressure to release them broadly.
    And in that same regard, once the content of the fraud 
report became public, did USCIS interfere in the workings of 
the Fraud Detection and National Security Directorate, the 
FDNS, and what do you think would be the best way to ensure 
that the FDNS is able to continue its work unhindered?
    Mr. Crocetti. Thank you, Chairman.
    It is important to understand that back in 2004-2005, when 
we developed this benefit fraud assessment tool, we had no 
data. So our immediate need was developing an internal tool in 
which to focus our procedures and guidance to the fraud 
officers that were just being hired and trained and placed out 
into the field. There was no intention or plan to use it as a 
public document to release externally.
    Taking that approach actually was very helpful because we 
were able to actually complete four benefit fraud assessments, 
and the one in particular, the religious worker assessment, in 
which we found a 33 percent fraud rate, resulted in the 
development of regulations that have since made significant 
improvements in that program and considerably reduced double-
digit fraud rates to single-digit. That was the objective of 
the benefit fraud assessment.
    As the information became more public--it started with the 
H1B, of course, given the interests of the H1B visas, et 
cetera--we realized corporately as an agency that we had to 
make modifications to the methodology and the approach because 
all of the information was going to be disclosed publicly. So I 
was instructed that the assessments would no longer contain a 
recommendation with regard to recommended improvements because 
there was an internal concern that there would be a knee-jerk 
reaction that could perhaps be too extreme. And the data that 
we were using certainly had some methodology issues, and I can 
explain that.
    One of the things in our immigration world--it is just like 
trying to find any files. Over the years, you have seen a 
number of reports. Getting legacy data from legacy mainframe 
systems and then trying to locate files and getting those files 
and obtaining everything----
    Mr. Goodlatte. Mr. Crocetti, let me interrupt since I have 
a very limited amount of time.
    Mr. Crocetti. Okay.
    Mr. Goodlatte. I will give you one more question here. In 
your testimony you state that in order to ensure the integrity 
of any benefit or entitlement program, the ability to detect, 
confront, deter, and prevent fraud--we need that. To do this 
effectively, we must be both proactive and reactive, proactive 
in the sense of performing fraud and risk assessments, 
compliance and quality assurance reviews, and other studies and 
analyses, and reactive as in conducting investigations with 
regard to individually suspected fraud cases.
    In your opinion, is USCIS proactively preventing fraud 
today?
    Mr. Crocetti. Yes, but I believe the agency is too 
reactive. I do not believe the agency is as proactive as it 
could be, which is evinced by the fact that we have not had any 
benefit fraud assessments done in the past several years.
    Mr. Goodlatte. Thank you.
    Mr. Crocetti. And I think our reactive nature of just 
identifying fraud leads and investigating them is exactly why 
legacy INS failed. And we have to be more proactive and have 
the internal controls, studies, and analyses to make sure we 
have real-time data.
    Mr. Goodlatte. Got it.
    Mr. Ting, pursuant to the Immigration and Nationality Act, 
arriving aliens are subject to mandatory detention whether they 
are found to have credible fear or not until it is determined 
whether they have legitimate asylum claims. This crucial 
requirement is designed to prevent aliens from being released 
into our communities and becoming fugitives. The detention 
standard was enacted for the very reason that large numbers of 
arriving aliens absconded after claiming asylum and being 
released.
    Under the statute and corresponding regulations, under 
limited circumstances, parole from detention is available to 
meet a medical emergency or, if it is necessary, to meet a 
legitimate law enforcement objective. However, these standards 
have been watered down by the current Administration via 
executive fiat.
    Why do you think that out of 14,525 aliens claiming 
credible fear in 2012, only 884, 6 percent, remain in 
detention? What does this high release rate say about ICE's 
parole policy and the surge in credible fear applicants?
    Mr. Ting. Yes. I think the Administration is misusing the 
credible fear test to admit large numbers of people at our 
border who should not be admitted. And I agree that there is a 
conflict, I think, in the statute, frankly, between the 
mandatory detention provision and the provision that says we 
are going to use the credible fear standard to provide a kind 
of screening at the border. So I think there is a 
contradiction, and I think the Committee should think about 
clarifying that.
    I have proposed taking the credible fear standard entirely 
out of the statute--I do not think that is what the credible 
fear test was invented for--and preventing that conflict from 
arising, leave the mandatory detention in, but take the 
credible fear test out, which is obviously being used to admit 
people who ought not be admitted to the United States.
    I was just talking to some old INS people here and we were 
saying that in the old days when people came to the border and 
said we want asylum in the United States, we would say, fine, 
come back in 2 weeks or whenever and we will have someone at 
the border. You can do the interview at the border, but we are 
not going to let you in pending that hearing. And this credible 
fear standard has given the Administration a way to say we are 
going to let you in now and you can come back later on for a 
substantive hearing if you want.
    Mr. Goodlatte. Thank you.
    Thank you, Mr. Chairman.
    Mr. Gowdy. I thank the gentleman from Virginia.
    The Chair will now recognize the Ranking Member of the full 
Committee, the gentleman from Michigan, Mr. Conyers.
    Mr. Conyers. Thank you so much, sir.
    First of all, I would like to welcome Eleanor Acer from 
Human Rights First. They have been before us before and the 
work that your organization does is phenomenal. And I am very 
glad that you are the Director of the Refugee Program.
    Now, one of the witnesses, Mr. Ting, recommends eliminating 
asylum protection and instead enhancing what is now known as 
withholding of removal. This got my attention right away, and I 
wanted to evaluate your feelings about such a proposal.
    Ms. Acer. Thank you, Congressman, for that question, and 
thank you for your kind comments. I appreciate them.
    That issue was resolved long ago, and it definitely would 
not be a good idea now. The United States should not be denying 
its protection to refugees with well-founded fears of 
persecution. That is not who we are and it does not send a very 
good signal to the rest of the world.
    The higher withholding standard basically is too high. I 
mean, what would we have? People leaving Syria and fleeing for 
persecution and we are going to say, okay, is it a 55 percent 
chance likely that you are going to be returned to persecution? 
That is not an appropriate standard. We should not make people 
take those kinds of risks with their lives. It is just 
unworkable really.
    The well-founded fear is the standard that is in the 
Refugee Convention, that our Supreme Court--and that we have 
been applying for many years. There is no reason to dial back 
the clock. There are many other methods of dealing with 
whatever concerns there are that need to get addressed in the 
system.
    Thank you.
    Mr. Conyers. Thank you very much.
    I wanted to talk about access to counsel, whether we are 
going to save money or be more efficient. Are there any cases 
that Human Rights First has worked on where a case outcome 
might have been different or where less strain may have been 
put on the immigration system had a client been represented 
earlier in the process?
    Ms. Acer. You know, we actually see many cases of 
individuals who go through the asylum office who are 
unrepresented. We interview cases very thoroughly before we 
take them on, and we see people all the time who have been 
referred from the asylum office, but yet, they have got 
credible cases that meet the standards. And then we are able to 
recruit pro bono lawyers to take those cases on, to gather the 
extensive documentary and other evidence that is often 
submitted in cases, to gather supporting evidence where it is 
available and where it is reasonable to expect it. And that 
really makes a difference for people. Counsel makes an 
incredible difference. We see day in and day out how much it 
does. And so many people go through the system unrepresented. I 
think it is around 50 percent, and for those in immigration 
detention, around 80 percent are unrepresented.
    Mr. Conyers. Is it reasonable that we should shoot for a 
goal that would allow people to have lawyers in case they 
cannot afford them?
    Ms. Acer. Yes, I think it is a real problem because 
technically we do allow people to have lawyers, but people are 
often in very remote detention centers. There are no legal 
services available there. There may be very limited nonprofit. 
You may find a local Catholic Charities office an hour away 
struggling to reach this facility. So it is incredibly 
important for people to be represented through our system. It 
is a very complicated system, issues of whether families stay 
together and, in asylum cases, whether or not someone is 
returned back to persecution. These are critical issues and 
people are navigating a very complicated system all by 
themselves.
    I know people think that somehow it is sort of really, 
really easy to get asylum. We have pro bono lawyers who work 
with us who work at major law firms, and they cannot believe 
how complicated these cases are often and they are often 
shocked at how difficult the process is.
    Mr. Conyers. Thank you very much.
    We are trying to figure out--and I am going to ask this 
question of the former chief of the Fraud Detection Office, Mr. 
Crocetti. We are trying to improve the ability to detect and 
fight fraud. Have you noticed changes over the years? Do you 
see any improvement going on?
    Mr. Crocetti. Yes. I mean, when compared to pre-9/11 under 
legacy INS, absolutely. There have been unprecedented 
improvements and more proactive efforts, i.e., the benefit 
fraud assessments, administrative site visits.
    However, I am concerned that over the past couple or so 
years, things have not progressed and they are not as 
proactive. And I am very concerned about that. I am very 
passionate about it obviously. I just cannot let go of it. But 
we need to be much more proactive in the area of benefit fraud 
assessments and compliance reviews to know where the fraud is 
and not wait until we are reacting and investigating cases. The 
volume is overwhelming. As it is now, they cannot handle it.
    Mr. Conyers. Well, I thank you.
    My time is up, so I yield back.
    Mr. Gowdy. I thank the gentleman from Michigan.
    I am going to swap places with the gentleman from Utah and 
go last, and I would now recognize the gentleman from Utah, Mr. 
Chaffetz.
    Mr. Chaffetz. I thank the Chairman.
    It has been established here in the testimony affirmative 
asylum claims have doubled--doubled--in the last 5 years to 
more than 80,000. Mr. Ting, you talked about perhaps some of 
the ways to resolve this, but what do you think the root cause 
of this is? Why do we see such a growth in this area?
    Mr. Ting. Well, I think the explanation is going to be 
complicated. I think it boils down to communications and 
transportation, that we live in a communications age. It is 
much easier for people all around the world to understand the 
possibilities that are out there for them, and it is easier for 
them to get to the United States, one way or another, to take 
advantage of those possibilities.
    One of my former colleagues in the economics department at 
Temple used to say the poor people of the world may be poor but 
they are not stupid. They are as capable of doing cost-benefit 
analysis to determine what is in their own self-interest as 
anyone in this room, he used to say. And they do it all the 
time, and we understand that. They use cost-benefit analysis to 
decide what they are going to do, and if the costs are low and 
the benefits are high, it makes sense to do something. And if 
you do not want them to do that, you have to raise the costs 
and lower the benefits. It is simple economics.
    Mr. Chaffetz. Mr. Chairman, I would like to enter into the 
record--I ask unanimous consent--an article that was in The 
Wall Street Journal dated January 29. It is titled ``Flow of 
Unaccompanied Minors Tests U.S. Immigration Agencies.'' It is 
basically referring to the U.S. Conference of Catholic Bishops 
that had forecasted 60,000 unaccompanied minors from Central 
America to cross the southwest border this year alone. That is 
up from about 5,800 roughly a decade ago.
    The surge that we are seeing of unaccompanied minors, which 
creates a whole host of problems and challenges, 60,000 of 
them--do you see a root cause for that? Let us start with 
actually Mr. Crocetti here.
    Mr. Crocetti. I am not familiar with that issue.
    Mr. Chaffetz. Mr. Ting, do you have any theories or insight 
or----
    Mr. Ting. Well, I think it is dramatic. It is still 
literally child's play to get across the border. Right? I mean, 
unaccompanied minors are getting across the border. That is how 
open the border is.
    But I think the same phenomenon is at work. We live in the 
Internet age. Everyone understands everything that is going on 
everywhere. People understand possibilities that they may not 
have been aware of before. They know how to----
    Mr. Chaffetz. Thank you.
    Mr. Acosta, can you speak to this point--on the two points 
here?
    Mr. Acosta. I can. As the Director in Mexico City, I 
actually led large-scale investigations where it was 
substantiated that unaccompanied minors were being smuggled by 
organized organizations operated from Central America, Mexico, 
and all the way into the United States.
    If you look at some of the statistics I believe from July 
of 2012 to May of last year, there were more than 23,000 
unaccompanied minors that were taken into custody. That does 
not count the ones that were able to reach the interior cities 
of the United States. That is a substantial number. There is a 
large amount of business for the cartels, the human smuggling 
operations that are operating in Latin America, and this is a 
very attractive business because the cost for each child coming 
into the United States in some cases was $5,000 to $7,500 per 
child.
    Mr. Chaffetz. Expand on that, the cartels, and what you see 
them doing with human and drug smuggling.
    Mr. Acosta. Much more so now, Congressman, the human 
cartels are very organized throughout Mexico and certainly 
through Central America. They are very specific in what they 
do. They are good at what they are doing. And while we 
mentioned that 23,000 were taken into custody, it is not to say 
that they did not obtain a benefit in being detained along our 
borders because, for the most part, a large number of those 
unaccompanied minors were ultimately released to their parents 
who were residing in the United States.
    Mr. Chaffetz. And again, along with this, how is it that 
our public policy--is it facilitating this? Is it encouraging 
this? Is it deterring them? What is it doing?
    Mr. Acosta. We have always had a large amount of children 
coming to the United States. With the large undocumented 
population that we have in the country, it is going to 
continue. Certainly with our detention policy, with our release 
policy, it is a great encouragement for families to be reunited 
with their minor children.
    Mr. Chaffetz. Yes, go ahead.
    Ms. Acer. I am sorry. I was just going to add in one other 
factor that we have not touched on, and obviously, it is not 
necessarily something this Committee is focusing on, but that 
is the violence that is driving many of these children to end 
up coming here.
    Mr. Chaffetz. Do you believe there is fraud?
    Ms. Acer. I also would really urge----
    Mr. Chaffetz. No, I am asking.
    Ms. Acer. Of course, sir, there are incidents of fraud, and 
my testimony has detailed many.
    Mr. Chaffetz. You have 25 pages of testimony.
    Ms. Acer. I am glad you read them, sir.
    Mr. Chaffetz. But it does not talk about fraud. That is the 
whole heart of this hearing. How do we prevent this? How do we 
fight against it?
    I am in favor of the person who is legally, lawfully trying 
to go through this process, but the worry is you got so many 
people taking advantage of the system because--I mean, look at 
the numbers. It is just astronomical growth.
    Ms. Acer. Thank you, Mr. Congressman. I actually did detail 
in there many, many safeguards that exist in the system. And I 
really want to stress the importance of making sure----
    Mr. Chaffetz. You did not talk about the detection of 
fraud.
    Ms. Acer [continuing]. The courts and asylum officer are 
actually well staffed enough to actually conduct their 
interviews and to eliminate that backlog, which I am 
concerned----
    Mr. Chaffetz. I thank the Chairman. Appreciate it.
    Mr. Gowdy. I thank the gentleman from Utah.
    The Chair would now recognize the gentlelady from Texas, 
Ms. Jackson Lee.
    Ms. Jackson Lee. Let me thank the Chairman for his courtesy 
and the Ranking Member for her courtesy as well and thank all 
the witnesses, some of whom I have had the pleasure of working 
with.
    Mr. Acosta, thank you for your service. Since we have 
engaged with each other over a number years when you served in 
your capacity in the Federal Government and I believe we have 
had these discussions, do you think a passing of a 
comprehensive immigration reform, delineating any number of 
methods of entry which then would separate, in essence, the bad 
guys from the good guys would be helpful in law enforcement?
    Mr. Acosta. If I understand the question correctly, ma'am, 
it is would passing a comprehensive immigration reform help.
    Ms. Jackson Lee. Yes, in delineating the good guys from the 
bad guys.
    Mr. Acosta. Well, I do not believe that comprehensive 
immigration reform would serve that particular purpose. I think 
that we need to institute the measures that we have that we are 
talking about today with the security checks of anybody that 
appears at our borders that is already inside the country.
    Ms. Jackson Lee. So you do not think the passage of 
immigration reform that gives new permission to work would be 
helpful to law enforcement at the border?
    Mr. Acosta. Well, I think that any method that we can 
identify who is inside the country is certainly beneficial to 
our country. But I think I would separate----
    Ms. Jackson Lee. So you say that certain aspects of it 
might be beneficial.
    Mr. Acosta. Well, I think that in identifying individuals 
in our country, but I think that is something that we should be 
doing anyway with law enforcement authorities working, 
especially when people game the system to get into our country.
    Ms. Jackson Lee. Well, you have the laws to deal with that, 
but you do not have the laws to ensure a fair process for 
people who may want to enter the country for work or otherwise. 
But thank you very much for your answer.
    Let me just proceed with you, Ms. Acer, and let me thank 
you. And I understand you may be coming to Houston, so I look 
forward to knowing your location. I work extensively with a 
number of leaders in the business community, the Partnership, 
that is, the Chamber, the Greater Houston Partnership, solely 
100 percent in support of comprehensive immigration reform. You 
may be coming to a location that will be receptive to some of 
your issues.
    But let me just take note of the fact in as calm a voice as 
I might do so, and I have a question for you. As I understand, 
before I came into the chambers, there were persons expressing 
their First Amendment rights, and obviously, through the 
protocol of this Committee, were removed from the Committee. 
But they were expressing their consternation, their 
frustration, their hurt, and their pain.
    One hundred fifty years ago when African Americans were 
experiencing that kind of pain, they engaged in something 
called Freedom Summer, and it was to emphasize to the Nation 
that we are, in essence, deserving of a fair play and justice.
    So as a Member of Congress, I am committed to abiding by 
the laws, but I would expect that we will see thousands upon 
thousands of individuals from all backgrounds coming to this 
Congress in the summer and finally saying enough is enough, the 
persons who may have been given asylum and others expressing 
themselves for someone to listen.
    We can sit here in this Committee and talk about violations 
of the asylum law passed by Senator Kennedy in 1980. It started 
out with 50,000 asylum seeker provisions. Now I think we are up 
to 75,000. That is now some 24 years--more than 24 years--30-
some years later.
    So all I can say to my colleagues on this Committee is be 
prepared. Be prepared for those who are feeling the pain of 
injustice.
    And let me be very clear as I pose this question to you. As 
I understand, asylum seekers come from potentially Syria, if 
they are not involved in terrorist activities. They come from 
some of the bloodshed and war-torn areas on the continent of 
Africa. They may come from, in years past, places like Burma. 
They come with the frustration of an onerous, murderous 
condition seeking asylum. All of a sudden, we have got asylum 
tuned only to the southern border, which baffles me because I 
have been on this Committee for a long time and I know that 
asylum seekers are children and parents coming from the worst 
conditions around the world that Americans may not even 
imagine.
    So let me ask the question since I met with an immigration 
judge before I came here. In the southern district, we may have 
just two immigration judges. They are literally bent over for 
the lack of resources, the lack of staff, and the overloading. 
So I ask this question. What is the impact of the immigration 
court backlog on asylum seeker cases? Are there cases at Human 
Rights First that have been directly impacted by the backlog? 
In your opinion, what needs to happen to address the backlogs 
in our immigration courts? And I would appreciate your answer.
    And I thank the Chairman for his charity on this answer. I 
note that there are 350,000 cases on hold right now.
    Mr. Gowdy. Despite the fact that the red light is on, you 
may answer the question.
    Ms. Jackson Lee. I thank the Chairman.
    Ms. Acer. Thank you very much, Mr. Chairman.
    Yes, the backlog in the immigration courts is having a 
tremendous impact on our pro bono cases. First of all, it is 
actually making it harder for us to recruit pro bono lawyers 
because what lawyer is going to take on a case that might not 
have a court date for 2 or 3 years?
    Also, that kind of a wait time for an asylum seeker is just 
not appropriate. It is not good for the integrity of the system 
and it does not help individuals who need to have their cases 
resolved, want to get on with their lives, and sometimes have 
children who are left stranded in very difficult or dangerous 
situations abroad. So I would definitely encourage anything 
this Committee can do to deal with the immigration court 
backlog and now also the asylum office backlog.
    Mr. Gowdy. I thank the gentlelady from Texas.
    The Chair will now recognize the gentleman from Texas, 
former Judge Poe.
    Mr. Poe. I thank the Chairman.
    I do not know that the issue before us is whether there 
should be asylum or not asylum. I think the issue before us is 
the people who cheat to get in the United States. So I want to 
zero in on that issue specifically.
    I appreciate the fact that you are here, Mr. Acosta. Thank 
you for your service especially in the Houston area. You did a 
good job and you still have an excellent reputation for your 
work.
    It brings me to the point that many times the Members of 
Congress who are not on the border States do not have a clue 
what is taking place on the border. And having been to the 
Texas-Mexico border and then Arizona-Mexican border, New Mexico 
numerous times, it is a different area. It is a different 
world, and only, it seems to me, people who work there daily 
and the people who live there on both sides of the border 
really see what is taking place on the border.
    But specifically, the issue before us is those people who 
lie to get into the United States, not bona fide asylum 
seekers, not people coming here the right way, but want to lie 
to get here.
    And my understanding, Mr. Acosta--and I would like for you 
to weigh in on this. The different drug cartels that operate, 
Sinaloas, the Zetas, whoever, they get into a confrontation 
south of the border, a shoot-out. Their members, I understand, 
are told to go to the United States until things cool off, and 
one of the ways, when they get in the United States, if they 
are apprehended by your guys, which many of them are, they are 
told to seek asylum and go through the process of an asylum 
seeker to be safe in the United States from their territorial 
rivals, drug cartels.
    Now, I do not know if that is true or not. I have heard 
that several times, but I would like for you and your expertise 
to weigh in on that situation of criminal gangs, criminal 
cartels, whatever using fraud asylum to stay in the United 
States temporarily or permanently.
    Mr. Acosta. Thank you, Congressman. It is a pleasure seeing 
you and thank you for the kind comments.
    Well, I think it goes without saying that we in Houston 
recognize that we have a large presence of cartel members who 
entered the country legally and illegally, and the violence has 
not been limited to the south in Mexico. As you recall, about a 
year ago, there was a shoot-out where a truck driver was shot 
by cartel members who were pursuing a shipment of narcotics 
that was destined north. Just 2 weeks ago, there was a young 
lady from Honduras who had filed for asylum who was killed in 
an open street in Houston, which received a tremendous amount 
of publicity, and it turns other there is a possibility that 
gang violence was partly behind that.
    We know that cartel members--we know that criminals will 
seek any avenue to enter the United States if we make it 
accessible and it makes it easier to come to the United 
States--one, want to flee perhaps turfs that they might have 
lost in Mexico, secondly to perhaps continue their criminal 
activities here in the United States. It is all too common and 
very well known to our law enforcement authorities in Houston 
and throughout the State of Texas. So I think that the 
statements that are made that cartel members are coming into 
our communities is very true, whether it is legal or not, and 
nothing is to prevent them from filing fraudulent asylum 
claims.
    On a personal case, I know that I arrested a heroin 
trafficker more than 30 years ago when I was an agent in 
Chicago. Thirty years later, the two sons of that individual 
were actually heading up the cartel operations of the Sinaloa 
Cartel in Chicago, Illinois. So I think that exemplifies the 
risk that we have in our community for any individual entering 
the country, as you state, by lying, whether they are coming in 
for asylum or seeking any other benefit. And I think we owe it 
to the American people to be vigilant not only along our 
borders but inside the cities in the United States.
    Mr. Poe. Would you agree with me that when we have the 
fraudulent claims--those really do damage to the bona fide 
people that are seeking asylum from persecution all over the 
world who are trying to get here? That hurts their cases 
because you have the fraudulent, the cheats, that are trying to 
use the same system. Would you agree or not?
    Mr. Acosta. Congressman, over the years, this has been 
proven that not only do they hurt other individuals seeking 
asylum, but it jams the system. It backlogs the cases that we 
adjudicate. It takes away from resources that we could be 
adjudicating, cases that deserve to be granted. And, yes, they 
do hurt the genuine cases that need to be approved or 
adjudicated on a timely basis.
    Mr. Poe. I thank the Chairman.
    Mr. Gowdy. I thank the gentleman from Texas.
    The Chair will now recognize the gentleman from Florida, 
Mr. Garcia.
    Mr. Garcia. Mr. Chairman, thank you very much. I want to 
start by thanking the Chairman for his efforts and the 
consideration he has shown the other side of the aisle.
    It is still my sincere hope that we can get to 
comprehensive immigration. However, it is disappointing that 
instead of working to that end, we are here playing with 
probably the least fortunate of all folks who come before our 
immigration system.
    I cannot help but question the Committee and Congress' 
commitment to getting something done. It took a year for the 
Republicans to come out with principles. Yet, 1 week later, 
Speaker Boehner, the only one that can bring a bill to the 
floor, back-peddled on immigration reform. Why?
    We have 197 co-sponsors to H.R. 15. I know a lot of my 
colleagues on the other side of the aisle would like to vote 
for a bill to get this done and move forward. But, no.
    My colleagues claim that they do not trust the President. 
After 1.9 million deportations, how much more enforcement? No 
President has spent more money on the border than the President 
of the United States. We have the lowest border incursions in 
over 40 years. There is an unprecedented manpower on the 
border. In fact, when the Government shut down, places like El 
Paso had 30,000 and 40,000 workers going home. We now have some 
of the securest cities in America across the border from some 
of the most insecure cities.
    The time has come to get immigration reform. We should 
focus on that. I know the Chairman is willing to do that, but 
we have got to get the leadership on the other side to put this 
on the floor and get a vote out.
    Mr. Chairman, I will yield back the balance of my time. I 
will yield back to my colleague.
    Mr. Gowdy. The gentleman has yielded to the gentlelady from 
California.
    Ms. Lofgren. Thank you, Mr. Chairman.
    We do not have as many Members as you do today, so I am 
grateful to get a little bit of time just to make some 
corrections here.
    In Mr. Ting's testimony at page 4--it was referenced by our 
colleague--there is an indication that there were 80,000 
affirmative asylum applications made in fiscal year 2013. I 
would like unanimous consent to put into the record a report 
from the Congressional Research Service that actually indicates 
there were only 44,000 affirmative asylum claims in that fiscal 
year.
    Now, this is an increase from the 25,000 in fiscal year 
2009, but much lower than the 77,000 claims in fiscal year 1997 
or the 63,000 claims in fiscal year 2001. So I think it is 
important to see that these claims go up and down and they 
often relate to what is going on in other parts of the world.
    For example, right now, as has been mentioned, there is an 
epidemic of violence in Mexico and also in Central America. And 
so there has been an increase in claims from people who are 
escaping from that violence.
    Not only is the United States being impacted with asylum 
claims, our neighbors to the south are being impacted. For 
example, the increase in asylum applications lodged by Central 
Americans to countries other than the United States have 
increased, a 432 percent increase in the number of asylum 
applications in Mexico, Panama, Nicaragua, Costa Rica, and 
Belize. So there is an epidemic and we are experiencing it, but 
our neighbors to the south actually are seeing an even greater 
increase than we are.
    Now, that does not obviate the need to be alert to 
fraudulent claims. Nobody is arguing that we should not be 
vigorous in aggressively protecting ourselves from fraudulent 
claims, not the advocates for refugee services or asylees. In 
fact, we know if there is fraud, it hurts legitimate 
applicants. So there is not a disagreement on that score.
    I would just note, Mr. Crocetti--and thank you for the 
service that you provided for our country for so many years and 
your continued interest in this. Many, as a matter of fact 
most, of the recommendations discussed in the report have been 
implemented in terms of the access to the databases and on and 
on. I assume, as you said earlier, that implementation of these 
recommendations have actually helped decrease fraud in the 
system you had indicated earlier.
    If I am hearing you correctly--and I am going to take this 
to heart--the suggestion you are making is that we need a 
systematic kind of assessment as we go forward. I am not sure 
that that is not happening, but I think that that makes sense. 
And I intend to pursue this with the Administration. It is 
really a matter of if we are doing well, we want to make sure 
that we continue to do well.
    For example, the drug cartel members--they are not eligible 
for asylum. I mean, they are barred under the act, but we want 
to make sure that we find out who they are.
    And with that, I thank the gentleman for yielding and I 
yield back. I will wait for my own time.
    Mr. Gowdy. I thank the gentlelady from California.
    The Chair will now recognize the gentleman from Ohio, Mr. 
Jordan.
    Mr. Jordan. I yield my time to the Chairman.
    Mr. Gowdy. I appreciate that, and I will hold my time until 
the end and recognize the gentleman from Iowa, Mr. King.
    Mr. King. Thank you, Mr. Chairman. I appreciate this 
hearing today and the witnesses.
    A number of things come to mind to me. As I listen to the 
discussion about 70 percent fraud--or likely fraud is the way I 
would interpret that--and I think about my business world, if I 
had 70 percent of any of the division or department or endeavor 
I was involved in and it had been going on since maybe 2005--
and we lament that we do not have current data to work with--I 
would first start with what can we do to put this all back 
together. Can we do that quickly? If not, what would the world 
look like if we did not have this program?
    And I listened to Chairman Goodlatte speak about how the 
United States provides asylum to a greater number than all the 
other Nations in the world put together. So this is a great, 
big bite out of the broader society that we are in.
    But it does not seem to me that there is a high level of 
anxiety about solving this problem. It seems that there are 
people here politically that are willing to accept a 
significantly high level of fraud without an urgency to fix it. 
When I see the numbers of unaccompanied adults arriving here in 
the United States, a number that I believe Mr. Acosta said has 
gone to a multiple of seven times what it was--I listened to 
Chris Crane, the President of the ICE Union on a public 
statement the other day that he thought that they would 
probably interdict around 50,000 unaccompanied minors in the 
United States, and now I see this number of 60,000 
unaccompanied minors.
    This is something to me that I would ask the reason for 
this. I would probably turn to Mr. Acosta on this. Can it be 
rooted in the reauthorization of the unaccompanied alien minor 
protections from 2008? Did you see a change in that in the 
acceleration then as the unaccompanied minors got two bites at 
the apple and all of the access to benefits?
    Mr. Acosta. Well, I think we have seen a large increase for 
a number of reasons. One is because over the years, 
Congressman, we have had a high percentage of illegal entries 
into our country. We went from early 2000 with estimates of 30 
million illegal aliens in our country to over 12 million 
illegal aliens in our country right now, many who come from 
Central and South America, many who left their children behind. 
When we talk about the change, we have seen a lot of the 
efforts by the parents to continue reuniting the children.
    I will add that 1 year ago we had a reduction of the 
illegal entry of adults coming into our country, but the 
numbers of unaccompanied minors entering the country illegally 
continued to increase in the surges that we are talking about 
right now.
    Mr. King. And are most of them being brought in by coyotes?
    Mr. Acosta. Well, with my experience when I was the 
Director in Mexico City, we had large smuggling organizations 
that were participating in this scheme. And I will share with 
you that my belief from what I know, most of the human 
smuggling operations are working jointly with the members of 
the cartels in Mexico. It is well organized. And I can assure 
you that if a large number of children are being sent to the 
United States and smuggled into the United States, it is with 
the knowledge of cartels or other human smuggling 
organizations.
    Mr. King. Are you aware of any of them being required to 
bring illegal drugs on their back as a price to their entry 
into the United States?
    Mr. Acosta. I am not aware of any children. However, we 
know the tactics that the cartels use. You might recall, 
Congressman----
    Mr. King. Thank you, Mr. Acosta.
    Mr. Acosta [continuing]. Several years ago, 72 people were 
executed in Mexico by cartel members.
    Mr. King. Thank you. We know that those numbers have gone--
the deaths have all been in the thousands, and it is tragic 
down there. And I appreciate your bringing that up.
    I would just point to a Center for Immigration Studies 
report by Jessica Vaughn, ``Deportation Numbers Unwrapped.'' 
And I would ask unanimous consent to enter it into the 
record.****
---------------------------------------------------------------------------
    ****See Appendix for this submission.
---------------------------------------------------------------------------
    Mr. Gowdy. Without objection.
    Mr. King. Thank you, Mr. Chairman.
    And I would point out too this. Within the context of this 
discussion, we have heard repeatedly that the deportations 
under the President are greater than they have ever been. And 
this report is an objective report, and it is a summation that 
goes clear back. It shows that the deportations right now--the 
removals right now all together, and that in the definition of 
deportations used in this report, are lower than they have been 
since 1973. The highest deportations that we had may have taken 
place in 1986 except under Bill Clinton in his last year in 
2000, he actually set the record with a number over 1.8 million 
deportations. So I make that point here into the record, and I 
will introduce that report.
    But I would turn to Mr. Ting and ask this question. If you 
have a problem and you are trying to fix this problem and you 
do not see that there is a solution coming--I appreciated your 
comment about the cost-benefit analysis that people make no 
matter what their particular economic status might be. And now 
here from the United States' viewpoint, cost-benefit analysis--
it is not working so good for us, and we are having trouble 
analyzing that. So I would ask you do you believe that if we 
applied a bonding requirement to the people that are being 
released into this country under the asylum application, if 
that would help fix this problem and what your view might be on 
that.
    Mr. Ting. Well, it would certainly alter the cost-benefit 
analysis. There would be one additional cost to worry about. 
And I think, again, if we want less of anything, we have to 
raise the costs and lower the benefits. That is just a basic 
fact of economic life.
    Mr. King. I thank you.
    My time has expired and I yield back.
    Mr. Gowdy. I thank the gentleman from Iowa.
    The Chair will now recognize the gentleman from Idaho, Mr. 
Labrador.
    Mr. Labrador. Thank you, Mr. Chairman. I wonder if the 
Chairman would yield to a question real quick. I am wondering. 
I have heard a lot of comments about immigration reform during 
this hearing today, and I know you and I were not here during 
2008 to 2010. But I wonder if the Chairman recalls what 
immigration reform was passed by the Democrats when they were 
in charge of Congress and the people of America had received 
promises from the President of the United States that they 
would do comprehensive reform when they were in power.
    Ms. Lofgren. Would the gentleman yield?
    Mr. Labrador. No.
    Mr. Gowdy. I would tell the gentleman from Idaho, as he 
knows, I was a prosecutor during that time period doing my best 
to get to heaven. So I cannot tell you what did or did not 
happen during that Congress.
    Mr. Labrador. All right. Thank you, Mr. Chairman.
    Mr. Crocetti, we heard testimony last month that asylum 
credible fear interviews are just 20 minutes long or less. Do 
any of you believe--do you or anybody on the panel believe that 
giving the asylum officers maybe 20 minutes is very difficult 
to make a credible fear determination?
    Mr. Crocetti. Yes, I do. I think it is very difficult to 
make an accurate finding in less than 20 minutes or 30 minutes.
    Mr. Labrador. So how would you suggest changing that?
    Mr. Crocetti. Well, one of the things that is absolutely 
essential to a decision maker, an adjudicator, is that as many 
system checks as possible could be done to identify any and all 
information to determine credibility and an individual's 
identity. So you can collect the biometrics and you can do the 
background checks, but the odds are there are not any records 
on most of these people. So now you got to focus on the 
consistency of the story and the credibility. Overseas 
verification of information and facts--one of the things I 
would do is build and expand the overseas capability of CIS to 
verify events, facts, and information instead of rushing 
judgment to making decisions in 10, 20, 15 minutes and 
releasing people.
    Mr. Labrador. Mr. Ting, do you have any comments about 
that?
    Mr. Ting. Well, I would build the State Department into 
this process rather than building an entirely new 
infrastructure for CIS overseas. There is an infrastructure 
over there. It is called our Foreign Service. We have 
knowledgeable people in every country who speak the language 
and have studied the culture, and that is a resource that ought 
to be drawn upon. It used to be drawn upon routinely in asylum 
adjudications, and it ought to again. In fact, again, talk to 
the career CIS people. I think there are a lot of career CIS 
people who agree with that and who regret that the State 
Department has been taken out of the process.
    Mr. Labrador. Mr. Acosta, do you have any comments on that?
    Mr. Acosta. Yes. Having actually served 13 years outside 
the United States with INS, I know that our offices are as 
responsive as possible. They are experts at this particular 
process.
    While I do not disagree completely with what Dr. Ting is 
saying, I think we have the expertise but we need more 
resources for CIS outside the country because that is the 
business that we are in. I know that adjudicators take it very 
seriously and I know they can respond. But as Mr. Crocetti 
stated, we need timely responses. We cannot wait 90 days to 
adjudicate a petition inside the United States. And in some 
cases, as the report presented here today has shown, we did not 
receive responses on, I believe, something like 27 of the 
requests that were sent outside the United States. That is not 
acceptable, Congressman.
    Mr. Labrador. Ms. Acer?
    Ms. Acer. Congressman, thank you.
    Yes, I would add that I think one of the most important 
things that can be done is to staff USCIS' asylum office so it 
has enough officers to conduct credible fear interviews and to 
devote as much time as needed in each individual case and that 
those interviews should be conducted in person not by 
videoconference. I think that is very important as well.
    I also wanted to note--there was a question before about 
bond. Many asylum seekers actually are only given an 
opportunity for release with bond. And I spoke just the other 
day to an ABA project working with people at the border, and 
they stressed to me how few people are actually getting 
released right now.
    I would like to also add----
    Mr. Labrador. If I can reclaim my time. Thank you.
    Mr. Crocetti, you also mentioned in your testimony that 
once the public became aware of these fraud reports, there was 
pressure to release them broadly. Thereafter, the contents of 
the reports became politicized. What did you mean by that? Can 
you please explain how the content might have changed once 
there was pressure to release them broadly?
    Mr. Crocetti. Well, once FDNS lost most of the control of 
the instrument, the benefit fraud assessment, after it went 
through an internal review process. And senior management is 
obviously very concerned about what a document (that is 
speaking for the agency) is going to say publicly because it 
has repercussions. So as a result of that, there were also the 
internal politics with regard to getting the approval process. 
It would take forever. I would refer to it--as I am sure most 
of you have heard--paralysis by analysis. And we could no 
longer get the reports done due to internal and external 
politicalization.
    And I would suggest, as in my statement, that Congress 
mandate that these reports and analyses be done and that a 
report be provided to Congress in an ongoing manner. Because if 
you do not--and I have been through this for nearly 4 decades--
it changes with the Administration and the party, the majority 
party, and it keeps jerking the agency back and forth. We 
careerists would really like to have a mandate so we could 
focus on that and get it to you with little political 
interference.
    Mr. Labrador. Thank you very much.
    I yield back my time.
    Mr. Gowdy. I thank the gentleman from Idaho.
    And the Chair will now recognize the gentlelady from 
California, Ms. Lofgren.
    Ms. Lofgren. Well, thank you, Mr. Chairman.
    I think sometimes extravagant things are printed in the 
press and it is really a distortion of what is really going on. 
And that does not mean that there are not things that we can do 
to make this system work better. And I think there have been 
some helpful discussions here.
    I have long thought that the country conditions--really, 
the State Department is in the best position to provide that 
information, and they do so on a yearly basis but they do not 
update it.
    Having said that, sometimes there is open source 
information. I mean, I remember many years ago when I was an 
immigration lawyer and I had an asylum case, and here was the 
case. It was a gentleman who was here, and he was Iranian. The 
Shah fell to the radicals. But he was Jewish. And what they 
were doing in Iran was they were machine-gunning the Jews. We 
could not get any information out of Iran at the time, but 
there was plenty of open source information. And we were able 
to make the credible fear case. Obviously, the law has changed 
since that time, especially the 1996 act that I participated 
in.
    I think it is important to note in terms of the report that 
you have discussed, Mr. Crocetti, that the indicators of 
possible fraud that have been referred to--specifically the 
report says that the negative credibility finding does not 
necessarily demonstrate that there would be fraud. I mean, 
there can be a lot of reasons why you might have a credibility 
issue. You may have a poor memory. You could have a translation 
error.
    The failsafe is that you are going to court and you are 
going to have a vigorous process where we have, in most cases, 
the asylee applicant is not represented, but the Government 
sure is. And if you can make that claim, you have got some 
failsafe there.
    So I think that does not mean that this is a perfect 
system, but I think that the concerns that were expressed by 
Mr. Acosta about things that happened in 1980 and 1988 and 
1994--certainly those were very much on the agenda of Congress 
when we revisited these issues. In the 1996 act, I think we 
have created some problems there in terms of the material 
support issue, for example. We have not gone into that because 
this is not a hearing about that. But as we know, for example, 
if you take up arms in any case, you are barred.
    And I remember talking to Secretary of State Colin Powell 
because the Montagnards, the Mennonites who were Montagnards, 
were barred from asylum. And, of course, Colin Powell, before 
he was Secretary of State, was a soldier in Vietnam and he had 
a tremendous attachment to the Montagnards and what they did 
for American soldiers. They were barred under our asylum laws 
because of their role on our side in the war. And while we 
messed around trying to refine this issue, we finally just took 
the Montagnards out of the mix. But to make that sensible it is 
very important.
    I would just like to also note that my friend, Mr. 
Labrador, constantly says, well, when the Democrats were in 
charge, we did not do immigration reform. Obviously, 
immigration reform did not pass. But I would like to note that 
in the 109th Congress, the Democratic controlled Senate passed 
a bipartisan comprehensive reform bill, and the House, then 
Republican controlled as now, refused to take it up and passed 
an enforcement-only bill. In the 110th Congress, the Democrats 
in the Senate tried to pass a bipartisan bill, but the 
Republicans blocked it and it fell apart. And I chaired the 
Immigration Committee on this side. We tried to do something 
modest, which was to provide relief for the families of U.S. 
soldiers. And I will never forget that appalling markup where 
our efforts to help the husbands and wives of American soldiers 
was defeated by the rhetoric. In the 111th Congress, that is 
when we had our 25-member bipartisan group working to put 
together a bipartisan bill, which we eventually did. But we did 
pass the DREAM Act which the Senate was unable to pass.
    So I remain hopeful that we will be able to work together 
to refine this system, but even more, those of us here working 
in good faith can put our heads together and come together with 
an effort to reform the immigration laws.
    And just a final issue, Mr. Chairman. As I had mentioned 
privately, we do have an issue of unaccompanied minor children. 
There is a surge. Those are not asylum cases. Those are 
children who have been actually apprehended at our border. We 
need to understand what is going on there. There is a 
multinational effort underway that includes El Salvador, 
Honduras, Guatemala, Mexico, and the United States to try and 
come to grips with that. It is my hope that we again--I just 
mentioned that I would love to have the Chairman participate--
that we can work in a multinational way to make sure that the 
right thing is happening there and that children are not 
exploited or injured.
    With that, I yield back my time.
    Mr. Gowdy. I thank the gentlelady from California.
    The Chair will now recognize himself for questions.
    Mr. Ting, there have been a number of studies referenced 
today with various levels of fraud detected, some as high as 70 
percent, some 30 percent. I am not smart enough to know what 
the percentage of fraud is. I think I am smart enough to know 
that nothing will sap the generosity of my fellow citizens 
quicker than fraud and a perception that we are doing nothing 
about it. So whether the number is 10 percent, they expect us 
to do everything we can to eradicate that 10 percent.
    So against that backdrop, I want to pursue two different 
lines with you. Firstly, detect and deter. I think Mr. Crocetti 
said the standard is a mere preponderance of the evidence, 
which is the lowest legal standard by which you would prove any 
claim in any court. That does not get any lower than slightly 
tilting the scales of justice. Has there ever been any thought 
to raising the standard of proof above mere preponderance of 
evidence?
    Mr. Ting. Well, I actually think preponderance of the 
evidence is a pretty respectable test. The test for withholding 
of removal is more likely than not. And as somebody has said, 
you know, 51 percent does it.
    Mr. Gowdy. It is not even 51 percent. It is 50.1 percent.
    Mr. Ting. Yes, 50.1 percent does it. That is a 
preponderance of the evidence. And that was the test when we 
did not have 208, when we only had withholding of removal. That 
was the test for withholding of removal.
    And indeed, when 208 was adopted, the position of the 
Service and the BIA was that the standard would be the same 
under asylum. And they litigated that issue. It went all the 
way to the Supreme Court in a case that I cited in my 
presentation called Cardoza-Fonseca in 1987. The Supreme Court 
in a split decision ruled that there was a standard even lower 
than that that applies to asylum. And the example that was used 
in the majority opinion was that if there is even a 10 percent 
possibility of persecution, that that would be sufficient under 
208. That would not be sufficient under withholding of removal, 
but 10 percent as opposed to the 50.1 percent that you just 
talked about for withholding of removal, that a 10 percent 
possibility of persecution would be sufficient, legally 
sufficient, for authorization of asylum.
    So that is why I am saying maybe we ought to get back to 
that. Maybe that 50.1 percent is not such a bad standard 
compared to the 10 percent the Supreme Court has authorized in 
Cardoza-Fonseca.
    Mr. Gowdy. I would agree 50.1 is more than 10, but 50.1 is 
the lowest standard above which any claim has to be proven in a 
court in this country.
    Mr. Crocetti also mentioned, because I made a note, that 
these are credibility-intensive inquiries, that credibility is 
sometimes the only thing that is going to be judged. And juries 
struggle for weeks sometimes to determine whether or not a 
witness is credible, and the judge always instructs the jury 
you may believe part of what a witness says, you may believe 
one thing a witness says, you are free to weigh and balance 
that credibility however you want. And you look at the tools 
that juries use: corroboration, physical evidence, bias. Bias 
is incredibly important when you are determining credibility.
    So what tools are used in this analysis to determine 
whether or not somebody is telling the truth or not?
    Mr. Ting. Of all the information, you have to determine 
whether there is anything that raises a question, any red 
flags, and as soon as you have one lead, if you will, you 
continue to pursue that and see if you get others. And once you 
challenge their credibility, as far as I am concerned, then you 
lean toward an unfavorable decision. Now, in the case of asylum 
with CIS, that is simply referring them to the immigration 
judge. So there could be two different standards there being 
applied.
    Mr. Gowdy. Well, Chaffetz had a hearing on Oversight, and I 
asked a witness--I cannot recall his name, but he was somebody 
who works for the Government that is in enforcement--that the 
fact that you lie on one part of your petition or application 
should not be considered as any evidence of veracity or lack 
thereof on another part, which I just find to be mind-boggling 
that you can pick and choose which questions you are going to 
answer truthfully and which ones you are not.
    But leaving the detect and deter for a second, I want to 
get to the punishment. What are the consequences for falsely 
asserting an asylum claim?
    Mr. Ting. Well, you are charged with fraud and 
misrepresentation, and then you are removable.
    Mr. Gowdy. Are those prosecuted with vigor?
    Mr. Crocetti. Well, I would have to defer to ICE or the 
Department.
    Mr. Gowdy. But you have been around a long time. Despite 
your youthful appearance, you have been around a long time. So 
my question is, if there is no disincentive to asserting a 
claim, if you are not going to be prosecuted for making a false 
claim or for fraud, where is the disincentive to doing it?
    Mr. Crocetti. Well, one of my frustrations throughout my 
career is the fact that whenever there is a ground of 
inadmissibility, there seems to always be an exception or a 
waiver available. And as provided in my testimony, I think we 
need to think differently and approach things a little bit 
differently. Maybe requiring one to be outside the country for 
a couple years is not quite the hardship that we have made it 
over the years. And until we start really getting serious and 
holding people accountable for their representation, we are 
going to continue to encourage fraud because the fraudsters, if 
you will, know there is a mechanism to get a waiver or an 
exception or whatever.
    Ms. Acer. Mr. Chairman, can--I am sorry.
    Mr. Gowdy. Well, I am out of time. In fact, I am woefully 
out of time. So I am just going to say this in conclusion.
    Ms. Lofgren. I ask unanimous consent to give you another 
minute so she----
    Mr. Gowdy. Yes, but that is only so she can answer. You do 
not really want to give me another minute. I am happy because 
of her generosity. I am happy for you to answer the question if 
you want.
    I would also like you to answer this one other question, 
because I do not know it, while you are answering that one.
    If you abscond while you are on bond, does that impact your 
credibility in a subsequent proceeding?
    Ms. Acer. Let me just jump in first to just reiterate again 
that fraud hurts everyone, including bona fide asylum seekers, 
and we really do need to make sure that whatever measures we 
look at are actually tailored to deal with fraud and do not 
block innocent individuals.
    I want to go back to your prosecution point, which I think 
is an important one. There have been, I think, stepped-up 
prosecutions in recent years and some really major ones which 
send a very strong signal. They are not just dealing with 
things in the past. It sends a signal in the future that fraud 
will not be tolerated. So I want to agree that those who 
perpetrate fraud absolutely need to be dealt with.
    I want to go back to this impression that the asylum system 
is somehow really easy. It is actually really difficult for 
people who are in the system and people who are bona fide 
refugees who go on to be granted. It is a hard system for them. 
So I just want to add that one point in as well.
    Oh, on the bond question. Sorry. So for individuals who do 
not comply with bond, there can be a range of consequences. I 
mean, the most important thing is that they actually are re-
detained if they have not complied with bond----
    Mr. Gowdy. I know. I am asking whether it impacts your 
credibility.
    Ms. Acer. I am sorry. I was in the middle of saying that. 
Sorry, sir.
    Yes, indeed, it could potentially impact your credibility, 
anything. If you said you are going to show up and you do not 
can impact your credibility potentially.
    Mr. Gowdy. Well, on an almost note of accord, we will end 
with me simply making this observation. I am convinced that 
everybody at this panel and frankly everyone on this dais would 
move heaven and earth to help someone who is legitimately 
making a claim for asylum. I am convinced of that. And those 
who behaved and remained in the hearing room, I am convinced of 
that as well.
    But I have got to stress--at least in my district--I cannot 
tell you about the rest of the country--what will undercut 
people's generosity of spirit quicker than anything else is 
fraud. And not only is it going to impact the fraudster, it is 
going to impact people making legitimate claims if we do not do 
something to get that number down as low as we can.
    So with that, on behalf of all of us, thank you for your 
time, your expertise, your collegiality with one another and 
with the members of the panel.
    Ms. Lofgren. Could I ask unanimous consent to place in the 
record a statement from the United We Dream Network?*****
---------------------------------------------------------------------------
    *****See Appendix for this submission.
---------------------------------------------------------------------------
    Mr. Gowdy. Without objection.
    Ms. Lofgren. Thank you.
    Mr. Gowdy. This concludes today's hearing. Thanks to all of 
our witnesses for attending.
    Without objection, all Members will have 5 legislative days 
to submit additional questions for the witnesses or additional 
materials for the record.
    The hearing is adjourned.
    [Whereupon, at 12:09 p.m., the Subcommittee was adjourned.]

















                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

  Material submitted by the Honorable Trey Gowdy, a Representative in 
 Congress from the State of South Carolina, and Chairman, Subcommittee 
                   on Immigration and Border Security


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 Material submitted by the Honorable Zoe Lofgren, a Representative in 
Congress from the State of California, and Ranking Member, Subcommittee 
                   on Immigration and Border Security




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


  Material submitted by the Honorable Trey Gowdy, a Representative in 
 Congress from the State of South Carolina, and Chairman, Subcommittee 
                   on Immigration and Border Security




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


  Material submitted by the Honorable Steve King, a Representative in 
     Congress from the State of Iowa, and Member, Subcommittee on 
                    Immigration and Border Security



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 Material submitted by the Honorable Zoe Lofgren, a Representative in 
Congress from the State of California, and Ranking Member, Subcommittee 
                   on Immigration and Border Security


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


           Prepared Statement of Michael Comfort, President, 
                    Comfort Western Enterprises LLC


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>

</pre></body></html>
